<html>
<title> - PROGRESS ON JOBS AND SMALL BUSINESS OPPORTUNITIES AS THE DEPARTMENT OF HOMELAND SECURITY CONSTRUCTION BEGINS IN WARD 8</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                       PROGRESS ON JOBS AND SMALL
                     BUSINESS OPPORTUNITIES AS THE
                         DEPARTMENT OF HOMELAND
                 SECURITY CONSTRUCTION BEGINS IN WARD 8

=======================================================================

                               (111-119)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             June 15, 2010

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
57-128                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6c0b1c032c0f191f180409001c420f030142">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee               VACANCY
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
HANK JOHNSON, Georgia

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
RUSS CARNAHAN, Missouri              SHELLEY MOORE CAPITO, West 
TIMOTHY J. WALZ, Minnesota           Virginia
MICHAEL A. ARCURI, New York          MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY,               BRETT GUTHRIE, Kentucky
Pennsylvania, Vice Chair             ANH ``JOSEPH'' CAO, Louisiana
DONNA F. EDWARDS, Maryland           VACANCY
THOMAS S. P. PERRIELLO, Virginia
HANK JOHNSON, Georgia
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Bennett, Cecil, Operator, Clark Foundations......................    22
Bunn, James, Executive Director, Ward 8 Business Council.........    22
Ebadi, Shapour, Project Executive, St. Elizabeths DHS 
  Consolidation, General Services Administration.................     4
Hardie, Yanic, President and Cheif Executive Officer, Hardie 
  Industries.....................................................    22
Lawrence, Lincoln, Vice President, Public Division, Clark 
  Construction Group, LLC........................................     4
McKirchy, Kathleen, Director Community Services Agency, 
  Metropolitan Washington, Council, AFL-CIO......................    22
Stewart, Gabriel, Laborer, Clark Foundations.....................    22
Thomas, Beverly L., President, Regional Contracting Services, LLC    22

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Norton, Hon. Eleanor Holmes, of the District of Columbia.........    45
Oberstar, James L., of Minnesota.................................    47

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bennett, Cecil and Stewart, Gabriel..............................    49
Bunn, James......................................................    50
Ebadi, Shapour...................................................    53
Hardie, Yanic....................................................    61
Lawrence, Lincoln................................................    63
McKirchy, Kathleen...............................................    74
Thomas, Beverly L................................................    77

                       SUBMISSIONS FOR THE RECORD

Ebadi, Shapour, Project Executive, St. Elizabeths DHS 
  Consolidation, General Services Administration, response to 
  request for information from the Subcommittee..................    60
Lawrence, Lincoln, Vice President, Public Division, Clark 
  Construction Group, LLC, response to request for information 
  from the Subcommittee..........................................    70

[GRAPHIC] [TIFF OMITTED] T7128.001

[GRAPHIC] [TIFF OMITTED] T7128.002

[GRAPHIC] [TIFF OMITTED] T7128.003

[GRAPHIC] [TIFF OMITTED] T7128.004

[GRAPHIC] [TIFF OMITTED] T7128.005


 
FIELD HEARING ON THE PROGRESS ON JOBS AND SMALL BUSINESS OPPORTUNITIES 
  AS THE DEPARTMENT OF HOMELAND SECURITY CONSTRUCTION BEGINS IN WARD 8

                              ----------                              


                        Wednesday, June 15, 2010

                   House of Representatives
      Subcommittee on Economic Development, Public 
                Buildings, and Emergency Management
             Committee on Transportation and Infrastructure
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 5:30 p.m., in 
St. Matthews Memorial Baptist Church, 2616 Martin Luther King 
Jr., Avenue, S.E., Washington, D.C., Hon. Eleanor Holmes Norton 
[Chairwoman of the Subcommittee] presiding.
    Present: Representatives Norton and Diaz-Balart.
    Ms. Norton. The hearing will come to order. The Ranking 
Member of our Subcommittee has a privilege I do not have. And 
he is exercising that privilege now. Votes were called as I 
left the House. And Mr. Diaz-Balart is anxious to be here but 
has indicated that he would have no issue with our starting 
this hearing. We expect him to come when the vote is over. The 
vote will be on for D.C. at some point. Don't give up on him.
    That said, welcome to today's hearing entitled ``Progress 
on Jobs and Small Business Opportunities as the Department of 
Homeland Security Construction in Ward 8.''
    We are examining a large and unprecedented Federal 
development on the federally owned West Campus of St. 
Elizabeths Hospital in the Anacostia neighborhood of Southeast 
Washington.
    The U.S. Department of Homeland Security headquarters 
construction project marked the first time the Federal 
Government will locate a Federal agency east of the Anacostia. 
And what an historic time it is because the Department of 
Homeland Security is not just any agency. It is a signature 
agency of the Federal Government.
    The St. Elizabeths West Campus has been an unoccupied 
eyesore for decades, bringing down Martin Luther King Avenue 
and the community around it. The Federal Government has held 
onto the West Campus because of the scarcity of land in the 
District because there is too little remaining space in the 
nation's capital to meet the Federal Government office space 
needs and because of the need for consolidation of agencies to 
improve their efficiency.
    By building on its own land, the St. Elizabeths campus, the 
site, brings savings to the Federal Government. And it meets 
other requirements, such as the presence of Metro stations and 
there are two stations near St. Elizabeths--and other public 
transportation as well and accessibility and proximity to other 
Federal agencies in the District.
    This is the second congressional hearing on the effects of 
the Department of Homeland Security headquarters development on 
employment and small businesses in the District of Columbia, in 
addition to our authorization and appropriation hearings. This 
hearing is devoted to the important local implications and 
benefits of this large Federal project.
    Later this week, as part of the annual congressional 
hearing before my Subcommittee on General Services 
Administration's Capital Investment and Leasing Program, we 
will address some of the macro issues related to the overall 
planning and construction of the DHS project.
    The Federal Government is crossing the Anacostia River with 
one of its most prestigious and important agencies at a time 
when wards 7 and 8 are seeking to become destination points, 
like many other areas in the District of Columbia.
    Although this construction will benefit the entire city and 
region, its potential effects on wards 7 and 8, in particular, 
are important. At the end of last year, ward 8 had a nearly 30 
percent unemployment rate and a poverty rate of 40 percent 
according to the Washington Post. I do not intend to bring a 
nearly $3.4 billion development to the District without 
ensuring that residents near the site benefit in the 
competitive search for jobs and small business opportunities.
    Last December, at my request, the GSA and Clark 
Construction generously constructed an Opportunity Center on 
the West Campus of St. Elizabeths. The Opportunity Center 
features job search assistance, small business and training 
sessions pre-apprenticeship, apprenticeship, and other job 
training information, a computer lab, a conference room, and 
information kiosk. It's a brand new quite fine facility.
    In addition, I introduced and Congress enacted an amendment 
that authorized $3 million for apprenticeship and pre-
apprenticeship training programs in the American Recovery and 
Reinvestment Act that we call the stimulus bill.
    At least one group, the Community Services Agency of the 
Metropolitan Washington Council, AFL-CIO, competed successfully 
for this funding and has graduated 161 adults, 105 of whom are 
District residents.
    We also anticipate opportunities for D.C. residents to 
participate in the building of the DHS headquarters through an 
apprenticeship program we previously negotiated with GSA, which 
requires apprenticeship training programs to be part of the 
competitive bidding process on all GSA building projects in the 
National Capital Region. That is to say, in order to win one of 
these lucrative contracts, they get points for training. And 
you can bet that we are going to make sure that all who have 
those contracts and subcontracts are indeed fulfilling that 
requirement.
    The GSA has worked closely with me to ensure that the 
community and the Federal Government actively collaborate in 
the planning and implementation of the DHS headquarters. This 
cooperation has been beneficial both to the local community and 
to the Federal Government.
    The Federal Government needs local communities to buy into 
Federal projects so that the two can exist amicably together. 
And communities want Federal construction which brings 
construction jobs and Federal employees to an area and has 
unfailingly spared local, retail, and commercial development as 
well.
    This hearing continues a process we began shortly after the 
Federal Government initially funded the new DHS headquarters 
project. In 2006, the community will remember we began by 
holding a town meeting where top GSA, U.S. Coast Guard, and 
District officials participated in a standing room only meeting 
where questions from residents were taken, followed by another 
community meeting in 2008.
    In September 2007, GSA and I sponsored a small business 
forum on opportunities that would become available at the site. 
In December 2007, we held our first congressional hearing on 
the project.
    The GSA has continued to ensure community participation in 
countless meetings working with ward 8 residents throughout 
this process and getting their feedback in order to assist GSA 
in making decisions. Consequently, the project has been well-
received by community residents, who are hopeful that the new 
headquarters will help spur retail and other efforts underway 
to ensure increased commercial development and, of course, that 
there will be jobs for the community from this project.
    The Federal Government broke ground on the Coast Guard 
building, the first building to go up, earlier this year, a 1.2 
million square foot building on the West St. Elizabeths Campus.
    The DHS components identified for consolidation at the 
headquarters include the Office of the Secretary of the 
Department of Homeland Security; the Transportation Security 
Administration; Customs and Border Protection; Immigration; and 
Customs Enforcement; the Federal Emergency Management Agency, 
or FEMA; and the Coast Guard; as well as liaisons for agencies 
not being currently located here because there is not enough 
room for all of DHS to fit into one site.
    GSA also has as its mission maintaining and preserving St. 
Elizabeths as a national historic landmark, including leaves of 
most of its historic building. Currently GSA is working to 
complete a master plan for the consolidation of some of the 
most important GSA component agencies to establish its post-9/
11 mission of bringing together agencies that must work jointly 
to prevent and respond to terrorist events and natural 
disasters in our country.
    GSA will relocate Federal tenants currently in leased space 
to federally owned space, unlike lease payments. Placing 
Federal employees in government-owned space enhances the 
vitality of the Federal building fund because lease payments 
are directed to the building fun and then recycled to help us 
keep Federal buildings going up and in good repair, rather than 
as with leasing going to private developers. We could very much 
look forward to having the hearing witnesses in this, our first 
site hearing. We will have other site hearings as the 
construction proceeds.
    We want to proceed now with the first of two panels and the 
witnesses. We will hear first from Shapour Ebadi, Project 
Executive, St. Elizabeths DHS consolidation, the General 
Services Administration.
    Mr. Ebadi, you may proceed.

 TESTIMONY OF SHAPOUR EBADI, PROJECT EXECUTIVE, ST. ELIZABETHS 
  DHS CONSOLIDATION, GENERAL SERVICES ADMINISTRATION; LINCOLN 
 LAWRENCE, VICE PRESIDENT, PUBLIC DIVISION, CLARK CONSTRUCTION 
                           GROUP, LLC

    Mr. Ebadi. Good evening, Chairwoman Norton and Members of 
the Subcommittee. My name is Shapour Ebadi. And I am Deputy 
Regional Commissioner in the National Capital Region for GSA's 
Public Building Service.
    Thank you for inviting me to appear before you to discuss 
the progress with the new Department of Homeland Security 
headquarters at the St. Elizabeths campus here in ward 8. The 
DHS headquarters project at St. Elizabeths is the largest 
Federal construction since the Pentagon. It's four and a half 
million square feet of workplace plus one and a half million 
square feet of parking spaces.
    DHS compares to the Pentagon six million square feet. 
However, the Pentagon also has more than 60 acres of parking on 
surface lots. DHS parking will be a multi-story parking garage 
located partially or completely underground.
    This project will have tremendous economic benefits for the 
neighborhood, the city, the region, and the nation. 
Construction will generate more than 30,000 jobs directly. And 
there are far more people working on the site and indirectly of 
the wages pay cycle through the economy. At the peak of the 
construction cycle, there will be 1,000 people working on site 
supported by hundreds of small businesses, subcontractors, and 
vendors.
    Moving DHS into a single federally owned headquarters 
campus will save the American taxpayers over $500 million. In 
net present value, when compared with continuing to locate the 
same components through leased space for the next 30 years.
    The preliminary draft environmental impact statement is for 
the placement of 750,000 square feet of office space and 775 
structure parking spaces on the east campus. This document is 
being released for public review and comment this summer. We in 
the District office describe it as a major boost to the 
District's effort to redevelop East Campus as a mixed-use 
community.
    We are also working with the District Department of 
Transportation, Federal Highway Administration, and National 
Clark Services to provide transportation access to the 
headquarters campus without unduly burdening Martin Luther 
King, Jr. Avenue.
    The key to the success of this initiative is obtaining 
approval from the National Park Service to utilize a small 
portion of the property through Malcolm X Avenue, I-295 
interchange. Negotiations are still underway with the National 
Park Service.
    GSA has made intensive efforts to reach out to the ward 8 
and surrounding communities. We have held more than 50 meetings 
here and in training labs, with advisory neighborhood 
commissions will take local residents' councils and local 
business groups. These include six public hearings, the town 
hall that you represent, Ms. Norton, Chair, and five all-day 
training sessions for small businesses on how to do business 
with GSA.
    Our general contract is for 1.2 million square feet. Our 
Coast guard headquarters now under construction has identified 
$224 million in subcontracting opportunities. Forty percent of 
this will go to small businesses.
    While GSA cannot mandate that Clark select from a specific 
geographic location, we have already chosen 25 District-based 
small businesses to work on site. Thirteen of these are located 
in ward 8. Seventy subcontracts are awarded.
    Clark will also establish an Opportunity Center on campus 
as a one-stop location for people interested in providing and 
procuring contracts or jobs to learn what opportunities are 
available and receive guidance from GSA personnel on site. This 
operation will continue with new general contractors 
participating in our program.
    GSA has also contracted with AFL-CIO to provide pre-
apprenticeship training. We held the first graduation ceremony 
in December. And we have graduated three more classes since 
then.
    Clark has established an apprenticeship program for people 
interested in careers in the building trades. They have already 
employed 34 apprentices. At least 12 are District residents, 
even though construction has only been underway for five months 
and it's focused on excavation and foundation work.
    At present, there are almost 650 employees on site. Four 
hundred and fifty-eight are being employed under or to Coast 
Guards headquarters, 250 truck drivers. Sixty percent of these 
truckers are owned or operated by the District residents.
    GSA is going to great lengths to present the character of 
this national and historic landmark. They have designed the 
campus so that no building will be higher than the center 
building. All the buildings that are above ground are located 
away from the historic part of the campus, either behind 
buildings. They are part of that or cascading down the hill to 
the Anacostia River. We will preserve these, and we use 51 of 
the 62 buildings on the West Campus.
    We and DHS are also working with the community to provide 
ongoing access to the campus. In particular, the magnificence 
views from the utilization of the theatre facility and the 
historic cemetery are the focus of our discussions. DHS has 
committed to making these sites available and accessible on a 
limited basis.
    This campus would also be an environmental short case. 
Approximately 80 percent of the roof area of the new building 
will be green. It will be a cogeneration facility, which will 
provide 25 percent of our energy on site. New buildings will 
have natural footprints or their interiors will have an 
abundance of natural light. We will use innovative HVAC systems 
and materials that are locally produced and/or recycled.
    The green roofs along with the extensive landscaping and 
underground systems will capture up to a 15-year strong event 
before it flows into the Anacostia River. Our goal is to 
achieve the go ahead in transportation from the U.S. Green 
Buildings Council.
    The total cost for the project, including funds both from 
GSA and DHS, is $3.4 billion. At present, more than one billion 
has been, $1 billion has been, appropriated to both agencies. 
Of this total, the American Recovery and Reinvestment Act has 
provided $450 million for GSA and $250 million for DHS.
    We are currently constructing phase one of the three-phase 
project. This first phase consists of 1.3 million square feet 
of Coast Guard headquarters, a 2,000-car parking garage, 
perimeter security fence, and renovation of 7 historic 
buildings.
    Occupancy for the Coast Guard will occur in 2013. Phase two 
will restore and modernize the center building to house the 
Office of the Secretary of DHS and construct the new FEMA 
headquarters on the East Campus, starting 2011 and finishing 
2014. Phase three will provide new headquarters for TSA, CBP, 
and ICE starting in 2013. Occupancy for the entire project is 
scheduled for 2016.
    In closing, I would like to thank you, Representative 
Norton, and your Committee for the strong support you have 
provided for this project. Your familiarity with all of its 
details is impressive. And your commitment to making it a 
success is strong.
    Thank you for providing GSA with the opportunity to make 
this project possible.
    Ms. Norton. Well, thank you for that testimony, Mr. Ebadi. 
We will have questions for you after we hear next from Lincoln 
Lawrence, Vice President, Public Division, Clark Construction 
Group.
    Ms. Norton. Mr. Lawrence?
    Mr. Lawrence. Thank you, Chairwoman Norton.
    My name is Lincoln Lawrence, and I am a Vice President for 
the Public Division in the Mid-Atlantic Region for Clark 
Construction Group, LLC.
    I would like to thank the Subcommittee for the opportunity 
to address our progress related to the construction of the U.S. 
Coast Guard headquarters building as part of the Homeland 
Security Construction on the St. Elizabeths campus.
    We were founded in 1906. Clark Construction Group is today 
one of the nation's most experienced and respected providers of 
construction services, with over 4.5 billion in annual revenue 
in major projects throughout the United States.
    We perform a full range of construction services throughout 
the United States, from small interior renovations to some of 
the most visible architectural landmarks in the country.
    Projects we are known for in the Washington area include 
FedEx Field, the Verizon Center, U.S. Department of 
Transportation headquarters, and the Largo Metro station.
    The foundation of all of our construction work is a solid 
relationship with both public and private clients who have the 
confidence to rely time and again on our experience and in-
house expertise to make their vision a reality and a commitment 
to the communities where we work.
    Today I am pleased to respond to the Subcommittee's request 
where Clark addressed the progression of contracting and job 
opportunities associated with the U.S. Coast Guard headquarters 
building on the St. Elizabeths campus.
    We are pleased that the U.S. General Services 
Administration selected Clark to lead the design and 
construction of the Coast Guard headquarters, a 1.2 million 
square foot facility that will feature an 11-story office 
building for 3,800 employees, a separate central utility plat 
in 2 7-story parking garages to be constructed on the West 
Campus of the former St. Elizabeths Hospital site here in the 
city's Anacostia neighborhood. This project is the first phase 
of the Department of Homeland Security's consolidation and 
relocation to Southeast Washington, DC.
    The U.S. Coast Guard headquarters project was originally 
planned for LEED certification. However, at our previous 
hearing in October before this Subcommittee, we committed to 
work with the GSA to seek to raise that rating to a LEED gold 
certification. And those efforts are on the way.
    In October 2009 before this Subcommittee, let me mention 
two efforts to encourage and expand employment opportunities in 
the community. First, Clark placed an employment opportunity 
trailer at the project site. This trailer is the Opportunity 
Center. The Opportunity Center trailer, run by GSA, is a key 
resource to the community providing real-time workforce 
availability on site, not just for Clark but all the 
subcontractors as well.
    Second, Clark provides GSA with timely procurement 
schedules such that any business, including those here in ward 
8, can see what work is coming and decide if they want an 
opportunity to participate in that work.
    Clark and their major subcontractors today have registered 
apprenticeship programs and keep in contact with Community 
Services Agency, who runs a pre-apprenticeship program that 
trains prospective employees from ward 8 on the skills needed 
to quality for an apprenticeship job.
    Just last Thursday, Clark hosted a current class in the 
tour of the Coast Guard job site and discussed upcoming 
opportunities and the process to apply for those jobs.
    Since beginning site preparation work in February, the 
major item of work has been earthwork. To date, we have moved 
40 percent of the approximately 1.3 million cubic yards of 
earth to be excavated. While the amount of dirt and rock 
removed daily varies, on an average day, approximately 250 
trucks remove dirt and rock from the site and as many as 300 
trucks may operate on any given day.
    Of these trucks, more than 60 percent are either owned by 
District operators or subcontracted by District companies. The 
Opportunity Center was used to introduce interested truckers 
and businesses to the earthwork subcontractor, resulting in 
significant local participation in the earthwork.
    Since the start of this project through the beginning of 
June, we have created a total of 23 new hires: 8 union and 15 
non-union. Thirteen of the non-union individuals were hired 
through the Opportunity Center. Soon the next major work 
project starting at the site will be concrete work, which will 
continue through the Fall of 2011.
    As with all construction efforts, concrete work will take 
some time before the effort significantly rams up. This leads 
to a discussion of how jobs are filled for this project.
    At this early stage of the project, we have approximately 
200 workers on site. To date, 34 apprentices have worked on 
this project. Journeyman and apprenticeship jobs are filled in 
a number of ways. Union jobs are filled through the various 
trade unions' halls. Non-union jobs have been filled through 
the Opportunity Center and from employees moving to this job 
after completing work on all the projects.
    The key here is using the Opportunity Center trailer as a 
resource for employment opportunities and following up with the 
various trades to make them aware of this resource.
    I want to make clear that the number of jobs in 
subcontracting opportunities are not unlimited. However, the 
Opportunity Center trailer is a vehicle for both subcontractors 
and job seekers to work with Clark and our subcontractors on 
the U.S. Coast Guard project.
    On behalf of Clark Construction Group, I want to thank you 
for the opportunity to testify today. And I am happy to answer 
any questions you may have. We also have a representative from 
two of our major subcontractors, John J. Kingman and Diane 
Electric Corporation. and they are available to respond to your 
questions and any specific questions related to their trade.
    Ms. Norton. Thank you very much, Mr. Lawrence.
    Your testimony, the testimony of both you, Mr. Lawrence, 
and Mr. Ebadi, is important because if we have the announcement 
of a construction project, people come out of the woodwork, 
especially in the period of the great recession, saying they 
want a job.
    Now, I want to ask you about the phases of hiring and 
business opportunities. I have been calling this the pre-hiring 
stage because what the public usually regards as construction 
work, people on the ground digging and all the rest of that, is 
yet to occur. What precisely is occurring on this site now?
    Mr. Lawrence. Currently we're doing the earthwork. We are 
actively progressing in the work. We are probably about 40 
percent complete with the earthwork.
    Ms. Norton. And the ``earthwork'' means hauling away earth 
so that you begin working in the hold; that is, to the new 
building?
    Mr. Lawrence. Right. Another way to look at it is 
excavation of the dirt that is there. We are moving it from 
site.
    Ms. Norton. Now, to do that work, there is basically a 
crane and some drivers?
    Mr. Lawrence. There are a number of what we call earth-
moving equipment, cranes. And you see a lot of dump trucks 
coming to take the dirt away.
    Ms. Norton. Now, Mr. Ebadi, is this what you meant when you 
talked about 24/7? Tell me about how that operation works.
    Mr. Ebadi. Yes, ma'am. As Lincoln said, we are in the 
excavation and hauling phase at this point. We are moving 1.3 
million cubic yards of dirt from the site. And right now we are 
moving--we have 45 percent into our 1.3 million cubic yards. 
And that's it, great achievement in our schedule and our----
    Ms. Norton. That's only because you are nonstop hauling?
    Mr. Ebadi. Correct.
    Ms. Norton. Twenty-four hours a day they are loaded and 
moved?
    Mr. Ebadi. Correct. And that's--we're doing this so they 
can get to our next phase, which will as we pour concrete. 
Actually, as they coincidentally poured our first concrete 
today, this morning, for our----
    Ms. Norton. What kind of workers pour concrete?
    Mr. Ebadi. Basically, we will utilize rebar and contractors 
and concrete finishers, concrete placers, and forklift 
contractors. And that just for the record, Chairwoman, our 
concrete provider for this project is a D.C. contractor. So we 
actually are----
    Ms. Norton. Could you submit the name of that contractor to 
the Committee within 30 days?
    Mr. Ebadi. Yes, ma'am.
    Mr. Lawrence. If I could just add to that? Also it's a 
District company that is also going to be furnishing and 
installing the reinforcing steel that goes in the concrete.
    Ms. Norton. A District-based company?
    Mr. Lawrence. District.
    Ms. Norton. Is that a small business?
    Mr. Lawrence. A small business.
    Ms. Norton. Will be providing the?
    Mr. Lawrence. Furnishing the reinforcing steel. That is 
what goes inside the concrete. They will be furnishing and 
installing that. And we can provide that along with the 
concrete company in the next 30 days.
    Ms. Norton. Now, do I understand--I'm reading from Mr. 
Lawrence's testimony--250 trucks to remove dirt and rock from 
the site. So that is starting today?
    Mr. Ebadi. Correct.
    Mr. Lawrence. Correct.
    Ms. Norton. And more than 60 percent are either owned by 
District operators or subcontracted by District companies. What 
is that?
    Mr. Lawrence. Correct.
    Ms. Norton. What is that?
    Mr. Lawrence. They are either District owners of the 
trucking company or in some cases a District company has 
subcontracted out to a number of trucks. So the number of 
trucks that the District company has subcontracted out plus the 
independent truckers to get a makeup of around 60 percent of 
all of the trucks being removing dirt at the site.
    Mr. Ebadi. In other words, this is exactly part of our 
goal. In achieving everything on this project, we are going to 
maximize about subcontracting plan and employment with the 
District residents, even though if there is a truck driving 
phase, we will have truck driver owner/operators that aren't 
mainly District contractors or District residents. We're going 
to the other activities, such as demolition.
    And, just to let the Chairman know, we have three projects 
other than procurement as we speak. Once these procurements 
come to completion as we award the project, there will be a new 
wave of actually abatement contractors, demolition contractors, 
and small businesses that will be part of this procurement.
     So each phase will have a significant amount of D.C. and 
surrounding communities' participation.
    Ms. Norton. Mr. Ebadi, this is a very important point. 
Usually when people think of a construction job, they think of 
something that goes on for a couple of years, it's up and 
running.
    This could provide jobs, construction jobs, for upwards of 
almost ten years. This will mean 14,000 Federal employees who 
have to come to work every day in this building. We will, of 
course, get to the effect that could conceivably have on ward 8 
later.
    How were you able to get such a high percentage of 
District-owned truck operators? What did you do to reach out to 
get this percentage? And you are going to supply the names 
within 30 days?
    Mr. Ebadi. Correct. What we basically have done is, even 
though--as a Federal project, geographical locations in our 
procurement is not mandated. However, every time we award a 
contract, either to Clark or to anybody else, basically Bonnie 
Echoles, our lead contracting officer, and myself and our other 
team members, one thing we emphasize to all of these 
contractors is basically in a real sense, understand where you 
are and understand what this project is about.
    This project is about basically for--has it not been for 
the recovery funds, this project would have never happened.
    So we will sit down with these contractors. And basically 
we will tell them they have to be sensitive to District 
contractors in ward 8/ward 7 so they may award residents as the 
opportunity comes about.
    Mr. Lawrence. If I could just add to that? Clark and our 
contractors are sensitive to the need to use District and ward 
8 residents. And one of the specific things we did shortly 
after awarding the subcontractor, a subcontractor of earthwork, 
we had an opportunity at the Opportunity Center, where we 
invited a number of small businesses, mostly from ward 8 and 
other District wards, who had competed for the work but were 
not successful in being the lowest responsible subcontractor.
    But we knew they had a lot of companies that had made 
arrangements with different truckers. So we got all of those 
companies to come and meet the low successful bidder. And they 
were able to form a relationship. And that is part of how a lot 
of these District companies are participating in the Coast 
Guard.
    Ms. Norton. Now, let's get to the qualifications for jobs. 
I was at the site. And I saw a homeless man, very well-spoken 
man, who was working on the site. And he told me a story that 
needs to be told.
     There are various ways to apply for a job. When people 
hear of jobs here, we have our apprentice programs, who are, of 
course, going to funnel people for consideration.
    Clark, as I understand it, went into the neighborhood. Now, 
I talked with this young man, who was living in a homeless 
shelter. And he told me that of the 20 or so people, that he 
knew of only one who had been hired.
    Shapour, why? In that first round of people that simply 
came off the streets, why was this young man the only one 
hired?
    Mr. Ebadi. The main reason, Congresswoman, was, 
unfortunately, most of them failed the drug test. And so, 
consequently, we were able to hire a very limited amount of the 
interviewers.
    And since then we have actually gotten together with some 
of the workforce groups and our contracting officers. Basically 
we're in the process of developing basically a community of 
workforce groups so they can partner with us in the Opportunity 
Center.
    So there will be some screening and pre-apprenticeship 
programs and also training before we go into the application 
process. This way we won't have the came scenario as these 
failures that we faced.
    Ms. Norton. Now, this is a Federal project. So it is 
governed by Federal law, not just by your own regulations. What 
does Federal law require with respect to documentation of 
citizenship?
    Mr. Ebadi. We require what we call basically permanent 
residency or work permit in the United States. And also we make 
sure if there are any background issues, we will take that case 
by case. We have basically said----
    Ms. Norton. Well, let me ask you to stop right there. 
Suppose a person doesn't have an entirely clean record. Under 
what circumstances could such a person work on a Federal site? 
I know you are using the same procedures here that you must use 
nationwide. What kind of a record can a person have and still 
get hired?
    Mr. Ebadi. There is no felony and the felony is not 
basically three years or earlier. They have made the basic----
    Ms. Norton. So even felonies if they are not recent 
felonies?
    Mr. Ebadi. Correct.
    Ms. Norton. OK. At least it allows you to be considered for 
a job?
    Mr. Ebadi. Correct.
    Ms. Norton. On a Federal site in this country?
    Mr. Ebadi. Correct. We have basically established basically 
a mutual agreement with DHS security folks to basically take, 
even in a worst-case scenario, where we need to evaluate the 
situation. We just want--there will be no basically umbrella 
rejection.
    Ms. Norton. Blanket rejection.
    Mr. Ebadi. Blanket rejection of the issues. Everyone will 
be considered on a case-by-case basis.
    Ms. Norton. Now, I was able to get the money out of the 
Congress for this project. I had gotten the first hundred 
million dollars out of them. The way in which I was able to get 
the money for this project was through the American Recovery 
Act. That act aims, first and foremost, to create jobs as well 
as small business opportunities. But it is an anti-recession 
statute.
    And my Subcommittee and the full Committee have been having 
hearings, in which we track the number of jobs and small 
business opportunities. Can you tell me how many jobs and small 
business opportunities have been provided to date?
    Mr. Lawrence. To date roughly 70 subcontractors and 
suppliers, who either have or will be participating in a multi-
tier basis on the project. Sixty-one of those 70 subcontractors 
and suppliers are small businesses. Of those 61, 25 are from 
the District and 13 from ward 8.
    Ms. Norton. What kind of work have small businesses been 
doing on this project at this time? And I would like the names 
of those small businesses in 30 days as well.
    Mr. Lawrence. Sure, not a problem. I would say a number of 
things. The major item is the site utilities work. That work 
actually started probably three weeks or so ago. And even 
though that company, small business company, the contractor is 
in excess of $2 million, they have only 7 people on the 
project. And I mention that because one of those seven actually 
came from the Opportunity Center, which I thought you might 
want to know.
    Other than that, for the earthwork and site demolition 
work, one of the joint venture partners or earthwork 
subcontractor is a small business as well as approximately nine 
of the major truckers that are working with a small or joint 
venture, earthworks, are small businesses.
    The other subcontractors or small businesses that have 
signed up actually have not started work as of yet, talking 
like for the exterior grazing work, for the mechanical, the 
electrical work. Those small contractors, small business 
contractors, that will be working with those subs have not 
actually started work yet on the project.
    But those, the 70 I mentioned, are those that have 
committed or have a letter of intent to do work on the project.
    Ms. Norton. Yes, Mr. Ebadi?
    Mr. Ebadi. Sorry. Just to elaborate on what Mr. Lawrence is 
saying, this is Clark's portion. Now, we have other projects 
that basically are not Clark's-related. If we know we are 
monitoring our subcontracting plan on a weekly basis in our 
progress meetings, we would have--basically so we just 
completed our demolition abatement contract for the warehouses. 
That was a small business, 8(a)-certified contractor. And, 
actually, they posted an 8(a) competitive procurement the night 
before last night for abatement and demolition of the seven 
historic projects that I mentioned in my testimony.
    So in the--that Clark is in maintaining their obligation to 
the subcontracting plan and small business participation, we at 
GSA also have our own small, set-aside contracts.
    Ms. Norton. This is very important to understand. Clark has 
goals for small businesses, and so does GSA. Some of the small 
business is not related to the major contract. And that is why 
GSA has it.
    Much of it is--and that's why Mr. Lawrence has it, and the 
government does allow goals and expects goals and expects goals 
to be met. This is an important distinction. There are two 
sources for small businesses.
    Now, Mr. Lawrence, let me tell you something that we're not 
seeing here, I hate to say, on this project. Sophisticated 
small businesses have said that there are times--again, this is 
not related to Clark, and I am obviously going to get 
information on Clark with respect to this allegation--that 
small businesses are sometimes taken on pursuant to goals and 
then the major contractor does the work or small business, in 
fact, now has an opportunity, managing opportunity, for 
training. It is simply used as appointment for the goals.
    How would you respond to that complaint, which I have heard 
widely enough to have to ask you not about your company but 
about what you are going to do to make sure these small 
businesses who qualify competitively, which means they must 
know how to work, in fact, can work alongside the contractor 
and, in effect, participate in a higher level of training than 
might have been available to them before?
    Mr. Lawrence. You are correct. I have heard that. A lot of 
people have heard that before. That is now how Clark operates. 
We have a smaller business group in our company. We also have a 
strategic partnership program and just completed a fourth year 
on this and may need to come back to what you talked about 
about developing these small businesses, teaching them, and 
from things that they would not otherwise be exposed to and not 
have the opportunity to work with large businesses.
    It is a process that we try to do, in fact, on the Coast 
Guard project, although we have been contacted by more than 250 
such small businesses. What we do is we get their capabilities. 
We make sure that for the specific trade that we are dealing 
with, we contract with the large businesses but not as a 
passthrough. It is made clear that Clark is not into that. And 
we have too much of a relationship with a number of people in 
the community whom we have helped and help us to develop our 
strategic partnership program to avoid and minimize things like 
that.
    Ms. Norton. Well, Mr. Lawrence, so far you have certainly 
met our expectations. I raised it because apparently it is 
fairly widespread among subcontractors.
    At the same time, I put the community on notice that this 
is a Federal project, and this is not just any Federal project. 
What I am going to say goes to all Federal projects. GSA is 
held to a very high-quality standard.
    Now, if someone competes--and the 8(a), the small 
businesses do compete, those who are 8(a) compete among 
themselves--if at any time a small business is not meeting the 
quality goals the Federal Government puts on Clark, Clark had 
better get rid of that small business. Mr. Ebadi had better be 
on notice here. That is how a Federal project works. That is 
why the competition initially is so important.
    And I assume that given the extraordinary competition for 
this historic construction, that once you have landed a 
subcontractor, you must be pretty good to begin with. So you 
begin with a presumption that you are good. And it is up to 
Clark to help go the rest of the way.
    And if something happens, it is Clark whom we are going to 
hold responsible. So it would reflect poorly on Clark and, for 
that matter, poorly on Mr. Ebadi--I'm sorry--on GSA, Mr. Ebadi, 
not on you personally, sir.
    [Laughter.]
    Ms. Norton. It would reflect poorly on GSA and poorly on 
Clark and their competition if after, in fact, recruiting 
subcontractors, they just had to toss them away or if the 
Congresswoman heard complaints that they had won but they are 
not doing anything.
    Now, we are fortunate, indeed, that our Ranking Member, who 
was voting on the House floor, has come. And he is my good 
friend. He wanted to be sure to come here. And I am going to 
interrupt my own questions now to ask Mr. Diaz-Balart if he has 
any opening statement.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman. Let me first 
ask you forgiveness for being late. You did mention why I was 
not able to be here.
    Ms. Norton. I will forgive you for voting.
    Mr. Diaz-Balart. That's right. That's right.
    [Laughter.]
    Mr. Diaz-Balart. Yes. You know, she's never subtle and 
never stops working----
    [Laughter.]
    Mr. Diaz-Balart. --as you have just seen right now. Let me 
just very briefly again thank you for having this hearing. I 
know that it is unusual in this time of bickering and of 
physical tease and of partisanship to have two Members who work 
closely together, who tend to agree on a lot of issues. And 
it's I think, due in great part, to the leadership of my 
Chairwoman. Thank you for having this hearing here.
    And, just very briefly, I had this whole spiel, but you 
already started, but I would be remiss if I didn't mention once 
again your leadership, Madam Chairwoman, in particular, in 
working so hard to make sure that the taxpayer doesn't continue 
to waste money with leasing properties whenever we can own 
because it saves. And this is a good example of one of the 
things that we are talking about today about this facility, St. 
Elizabeths, that we could save potentially hundreds of millions 
of dollars to the taxpayer. And also the Chairwoman has also 
been a strong advocate obviously to making sure that facilities 
stay here in the District.
    She has been steadfast. She has been effective. To me it is 
a privilege to work with her, issues that she cares so deeply 
and shows great leadership. So I had a statement that there is 
ample opportunity for that, Madam Chairwoman.
    I do want to, again, since the whole voting thing got 
extended--I may have to leave earlier than, unfortunately. But 
no, I mean, we're done there, but everything else that I had 
planned for after that has now been postponed. So I am not 
quite sure. Depending on how long your hearing is--obviously 
it's of great interest. If I leave early, it is not because I 
am not interested. Plus, as you all know, I will hear it 
anyways.
    [Laughter.]
    Mr. Diaz-Balart. And I know that none of you have any 
doubts anyways.
    Thank you all. Thank you all for being here. Thank the 
witnesses. And, more importantly, I want to thank the 
Chairwoman not only for this hearing but for her steadfast 
leadership and for standing up for the people that she 
represents so well. Thank you, Madam Chair.
    Ms. Norton. Thank you, Mr. Diaz-Balart. You haven't heard 
the questions. So I am inclined to ask you, do you want to ask 
any questions now?
    Mr. Diaz-Balart. No, not at this moment.
    Ms. Norton. All right.
    Mr. Diaz-Balart. Thank you, Madam Chair.
    Ms. Norton. And perhaps wait for the next panel.
    Now, I was interested to hear that, even in this so-called 
pre-hiring season, when we basically are hauling away dirt and 
rock, that in your testimony, Mr. Lawrence, you indicated 34 
apprentices have worked on the St. Elizabeths project. What 
have these apprentices been doing in this kind of pre-big 
hiring season period?
    Mr. Lawrence. Well, actually, 17 of those apprentices were 
with our electrical subcontractor. They had some site 
electrical utility work to do earlier in the project. And that 
was where 17 of those participated.
    I am also listing the unskilled laborers that we have hired 
from the Opportunity Center as part of their apprenticeship 
program. Other than that, the mechanical contractor had one 
apprentice on the project. And our supportive excavation work 
had four. So that was sort of how we came up to the 34 that 
participated so far.
    We estimated in our proposal that we anticipated 
approximately 375 apprentices through all trades throughout the 
project for the 3 years.
    Ms. Norton. Now, when does the hiring season for this 
project begin in earnest?
    Mr. Lawrence. Well, as Mr. Ebadi mentioned, we are just 
starting with the concrete work. And I anticipate later----
    Ms. Norton. Does that mean we're still hauling away----
    Mr. Lawrence. Oh, no. The earthwork is approximately 40 
percent complete. I anticipate the continuous hauling, with 
night shifts included, will continue through August-September. 
And I would say about September-October, we will probably be 
about 80 percent complete with removing the dirt from the site.
    The remaining 20 percent would be at a slower pace. And 
will continue through into the first quarter of next year 
because, even though we have finished for the main building, 
there are two garages there, which would be better at a slower 
pace.
    Ms. Norton. Now, Mr. Ebadi, I indicated to GSA that, 
particularly in light of the fact that this is a stimulus 
project, I didn't understand sequencing the building and the 
use. They're not particularly related. Are we going to be 
hiring people on the reuse work of the historic buildings at 
the same time that we are working on construction? And if so, 
when does that begin?
    Mr. Ebadi. Yes, ma'am. As I mentioned before, Clark--let me 
not restrict it to Clark. By the next six months, Clark will 
have only a small piece of this project. So we are actually 
moving, shifting towards modernization and actually 
infrastructure work and most of the abatement and demolition 
project. Those are the ones actually that are done heavily that 
concentrate on small businesses and local workforce because of 
the nature of the work.
    Typically when you get into modernization and interior 
work, that is where basically you will utilize a lot of man-
hours and----
    Ms. Norton. What kind of work do you do in that interior 
work?
    Mr. Ebadi. Everything from demolition, painting, basically 
tile work, glazing, drywall, patching, masonry, site work, 
landscaping, excavation, utility duct banks, and so on. These 
are heavily labor-intensive phases.
    As Mr. Lawrence mentioned, we are actually 40 percent into 
our excavation, but we have set forth a construction sequence 
so we can start carpentry early while the other excavation in 
the home is going on at the same time. So we will actually be 
moving aggressively on the schedule so we can produce better, 
also have a better outlay for our committed employment and 
business opportunities for this project.
    Ms. Norton. Well, this proceeding as if this were indeed an 
organic process, rather than a sequential one, is actually very 
intelligent to save us taxpayers' fund, to avoid the times of 
delays in completion of a project. That would be very important 
here.
    You describe, Mr. Ebadi. Suppose there are here today small 
businesses who would like to become 8(a) businesses. How can 
they become 8(a) businesses?
    Mr. Ebadi. Yes, ma'am. And we have basically 8(a) training 
on parts of the small business with GSA every other week in our 
Opportunity Center and in response at the Small Business Office 
in GSA National Capital Region. They come through the 
Opportunity Center.
    LaJuan Stevens and her team basically send out information 
so these folks can basically get them through the GSA process 
and be part of our future workforce in the subcontracting 
community.
    Ms. Norton. So let me see how this happens. So I want to be 
a small business. I understand you are having this session this 
week. You have these sessions every other week?
    Mr. Ebadi. Every other week.
    Ms. Norton. OK. I come to your session. At the end of that 
session, what happens, this session of 8(a) session? Am I 
qualified as an 8(a) business or not?
    Mr. Ebadi. 8(a) qualification is basically in being 
certified by the Small Business Administration. However, what 
is ironic, Congresswoman, most of the 8(a)'s that we deal with 
are receiving training sessions.
    Very few of them know how to deal with GSA set-aside 
programs and also general contractors. We basically walk them 
through our subcontracting opportunities. And at the end of the 
day, they are very informed about the project, phasing 
different phases of the project, and the potential general 
contractor and subcontracting opportunities out there.
    And we basically walk them through sometimes how to--what 
are the methods in terms of getting bonds and basically 
introduction to different people in Small Business 
Administration and also how to actually even fill out the bid 
form.
    Ms. Norton. So how do they become 8(a)-certified? I still 
don't understand that. So they go through this. It's important 
to learn this. How do you get on the dotted line certified you 
are 8(a)?
    Mr. Ebadi. 8(a) certification is done by the Small Business 
Administration.
    Ms. Norton. So I know who it is supposed to be done by. So 
what do they come to you for?
    Mr. Ebadi. They come to us basically to understand how 
GSA's set-aside program works.
    Ms. Norton. Then how does the Small Business Administration 
get involved in these people who have come through your 
workshop?
    Mr. Ebadi. Sure. Once we basically have these folks under 
trained in our workshop, once an opportunity comes up for an 
8(a) project, our contracting officer will send a letter to the 
Small Business Administration to make sure these folks are 
certified. And they will basically get into negotiations with 
that firm.
    Ms. Norton. So do they take your training and march over to 
the Small Business Administration and say, ``Certify me''?
    Mr. Ebadi. They are already certified before they come to--
they are already an 8(a)-certified contractor before they come 
to our----
    Ms. Norton. So my question, Mr. Ebadi, is, how does a small 
business get 8(a)-certified? And what does your training 
workshop do to help them get 8(a)-certified?
    Mr. Ebadi. We basically show them the procedures on how to 
become and 8(a) and also how to receive 8(a) certification 
through the Small Business Administration.
    Ms. Norton. I still don't know how. OK. I receive the 
training. Do I take testing? What do I do to----
    Mr. Ebadi. No. The Small Business Administration basically 
hands out----
    Ms. Norton. Do you pass on some kind of recommendation to 
the SBA?
    Mr. Ebadi. We don't have any recommendations, but they can 
actually put that on their resume that they have been through 
the GSA workshops.
    Ms. Norton. And that will assist them in getting 8(a) 
certification?
    Mr. Ebadi. Correct.
    Ms. Norton. How many people have gotten 8(a) certifications 
through your workshops?
    Mr. Ebadi. We will get you the information.
    Ms. Norton. I need that information: names and serial 
numbers.
    Mr. Ebadi. Yes.
    Ms. Norton. Now, in your testimony, Mr. Ebadi, you say that 
the small business goal for the Coast Guard headquarters--
that's the first building going up. It's $225 million. How is 
that amount derived?
    Mr. Lawrence. In our proposal to GSA, we have estimated the 
amount to be contracted. And that is how that overall----
    Ms. Norton. Say what? I'm sorry?
    Mr. Lawrence. In our proposal to GSA last July, one of the 
requirements in submitting a subcontracting plan was to 
estimate the amount----
    Ms. Norton. I see.
    Mr. Lawrence. --of dollars to be subcontracted.
    Ms. Norton. Well, this is what I want. You're saying that 
as part of competing for the project with a lot of people 
competing, you had to indicate how much you would devote of 
your work to small businesses.
    Mr. Lawrence. To small business.
    Ms. Norton. And in competition with others who came up with 
various amounts, presumably less than yours, that was something 
that helped you get the contract?
    Mr. Lawrence. Correct.
    Ms. Norton. OK. Well, that's why you are going to be on 
accounting.
    Now, when does GSA expect the first award on that grand 
center building that is going to be I take it the Secretary's--
--
    Mr. Ebadi. It is part of our phase two 8(a) project, which 
is in design as we speak. And it is supposed to help us out in 
the procurement in November and December of this year.
    Ms. Norton. Now, there are 15 different--out of the 
stimulus from our Subcommittee was not only the DHS project but 
15 other projects going on right here in the District of 
Columbia upgrading Federal properties. In what ways since those 
are located right here are residents to be involved or are 
involved in that work?
    I'm not stopping with DHS, and I know Clark is not 
necessarily the contractor there. But the work that is being 
done and Mr. Diaz-Balart stated is to be done in all 50 states, 
all the territories, and the District of Columbia because this 
is the nation's capital and because we are talking about fixing 
Federal properties, there is perhaps a disproportion of those 
properties in the nation's capital. So how are you handling the 
small business and the jobs for those 15?
    Mr. Ebadi. I would have to defer that question to our 
recovery team, but basically the procurement----
    Ms. Norton. I know in one sense it is an unfair question 
because you are the Department of Homeland Security man, but 
whatever you know about it I would like to know about it.
    Mr. Ebadi. Sure. In general, the procurement mechanism and 
guidelines are the same, how we basically have competition and 
procurement for those projects that is anything from 25 
million-plus, basically we'll have a PLA language in the 
procurement. And also there will be a good portion of small 
business focus and why.
    Ms. Norton. Now, Mr. Ebadi, one of the great and important 
things that this project will do and that, to your credit, GSA 
has been working to assure is to help restore Martin Luther 
King Avenue as a great thoroughfare.
    Now, in every building that we construct, we the Federal 
Government, there are some amenities. If, however, all of the 
amenities go to things, dry cleaners, the kinds of things that 
people expect to do during work hours or going to work, coming 
to work, if those amenities are all located behind the wall--I 
understand it is an historic wall. I am not going to take down 
the wall.
    But if those amenities are all provided within the 
building, then Martin Luther King Avenue will look the same way 
it looks today. What are you doing to make sure that amenities 
are offered on the outside the same way they are offered on K 
street in the District of Columbia?
    Mr. Ebadi. Actually, ma'am, we are working very closely 
with the District business development teams. And that is why 
our East Campus master plan actually is critical to be an 
anchor for private businesses and private developers to be 
alongside the North Martin Luther King Avenue because, even 
though 14,000 employees will be on this campus, Federal 
employees will--the average of Federal employees, that will eat 
and utilize the internal employees varies, but they will be--it 
may just lead to outside amenities.
    So in our discussions in the District, we are actually 
working through to help them out on their FEMA headquarters so 
we can upgrade their infrastructure to bring private developers 
to build the amenities in commercial development.
    Ms. Norton. This is certainly an important and actual part 
of what you are doing. I appreciate that you are working with 
the prospectus. We are going to require that this be done so 
that there be no doubt that it will be in writing. It is not 
that we don't trust you. It is because we don't know who will 
be there during what may be ten years of construction. We have 
no issues with GSA at this time I am pleased to say.
    I understand that GSA wants $10 million in this project to 
go to pedestrian tunnels. Why should we spend that money on 
pedestrian tunnels? What is wrong with DHS employees they can't 
cross the street if they have got to get over to the FEMA 
building?
    Mr. Ebadi. It is mainly, actually, to help more both the 
transportation management plan, also the security requirements. 
Basically we want to use the full ratio for parking space in 
this campus. And our goal is with parking with DHS basically 
once an employee walks in through a security entrance, they 
don't have to go back and forth and utilize other means of 
transportation or driving across a parking lot----
    Ms. Norton. Mr. Ebadi, as long as you have that thing on 
you that says that you are an employee, you are not going to 
have to worry about going into the entrance on the other side 
of the street.
    Mr. Ebadi. There are 22 entrances. And each one of them 
probably will have their own----
    Ms. Norton. They're not going to have their own because 
they also come under our jurisdiction. And if they are all with 
the Department of Homeland Security, then they do Department of 
Homeland Security. And if somebody wants to get in there one 
way or the other, they are not going to be able to find some 
easier way to get into the Department of Homeland Security than 
other ways.
    We are dealing with, as you know, Mr. Ebadi--this, of 
course, has nothing to do with you but with the fact that 
differential standards for buildings resulted in the GAO being 
able to get bomb-making materials into a building and go in the 
restroom and put them together. That is how much security we 
have when we have each agency trying to decide.
    This is not for us to decide here. If they are going to 
have high-level security--and they should--they are not going 
to have--each agency deciding different securities. And if they 
don't, then why was your picture on your chest? Could you not 
cross the street to go to another building?
    Mr. Ebadi. Actually, what I think by different agencies, 
actually, they believe in one DHS, which facilitates one 
security. But there are conformants within DHS that requires 
different classification of security clearances.
    Ms. Norton. And if you go through the tunnel, you wouldn't 
have any problem?
    Mr. Ebadi. It depends on----
    Ms. Norton. And this tunnel is going to lead to every 
single place that you are going to want to go to in the DHS? 
You all are going to have to make out. I am not going to the 
appropriators and saying I need $10 million to help these 
people get across the street.
    I am going to have to justify every penny. You are not the 
one who has mandated. It is probably coming from DHS. But you 
are the one who builds it. You would be performing a miracle if 
you bring it within budget.
    And I don't know why we need a tunnel underground for the 
employees. And I also think that that carries the implication 
of it being closeted from the community. So I don't like the 
sound of it. I don't think there's a security reason for it.
    It is true that in the capital, we have tunnels built long 
ago, when the cost of such tunnels was not very steep. You 
could make the case that you want--I suggest you don't, but you 
could make that case that you wanted to protect people from the 
elements, to which I would say that is not what $10 million of 
Federal money should go to.
    So I have not heard the case. And I know this is not your 
job, Mr. Ebadi.
    Mr. Ebadi. Yes, ma'am.
    Ms. Norton. But you can go back to your friends at the 
Department of Homeland Security to say that until I hear a 
better reason to dig a tunnel adding $10 million to this 
construction, until I hear a better reason than I have heard, 
that is one cost saving that the administration will get.
    The administration now is seeking all kinds of stretches in 
the budget. They have been generous to this project. But if the 
President were to call me in and say, ``I don't know. Why do 
they need this $10 million?`` I would be tongue-tied. And I 
have to be able to articulate such expenditures. And I 
understand that they are of some comfort to employees.
    So far as I can understand, one agency that is going to be 
on the other side of the street, one agency. So there is only 
going to be one agency on the other side of the street. I don't 
know why you would have a big rush of people that would require 
so much security or so much comfort that they couldn't just 
cross the street since the majority of your agency is going to 
be right here on the West Campus.
    So put them on notice that we are already saying $10 
million.
    I have only one more question that has to do with 
monitoring. Would you describe for the record what kind of 
monitoring of hiring and small business is being done on this 
property?
    Mr. Ebadi. Yes, ma'am. Basically there's two steps of 
monitoring. One is basically a contractual requirement. That 
is, as Mr. Lawrence said, every proposal that comes to us on a 
competitive procurement process, it will state they're a small 
business----
    Ms. Norton. Say it again. I'm sorry. I was distracted. I 
should----
    Mr. Ebadi. Sure. There are basically two steps of 
monitoring the small business opportunities. One is basically a 
contractual requirement. And when proposals come in, as Mr. 
Lincoln Lawrence mentioned, we looked at the proposed small 
business, basically, percentages. And then we monitor that 
throughout the project. Ms. Bonnie Echoles has been here with 
the team. And our construction agents basically have constant 
monitoring of payrolls and also small businesses----
    Ms. Norton. Well, you described what you're doing to report 
to the company.
    Mr. Ebadi. Yes, ma'am. The other thing is actually beside 
the procurement on this project, we also report to your office, 
ma'am. And we are----
    Ms. Norton. It is really me and Mr. Diaz-Balart. We report 
to the Subcommittee----
    Mr. Ebadi. Yes, ma'am.
    Ms. Norton. --on the number of jobs, the number of small 
businesses, et cetera.
    Mr. Ebadi. Every other week we report to the Subcommittee 
on both opportunities, the jobs, and the subcontracting, both 
awarded and opportunities throughout this, to the Subcommittee.
    Ms. Norton. I lay that out because I really do not intend 
to be an answering service for people calling, ``I need a new 
job, Eleanor.'' You know, I need the record here.
    Mr. Diaz-Balart. You get that as well? You get that as 
well?
    Ms. Norton. Yes. But, you know, we are not expected to get 
jobs for people. I am only equipped to make sure that the 
contractors and the subcontractors are fulfilling their goals. 
So I just need to leave the documentation so that people will 
know it is happening or not happening.
    Mr. Diaz-Balart, do you have any questions?
    Mr. Diaz-Balart. Ms. Norton, actually, I did, but you kind 
of went through them already. And, you know, it shouldn't 
surprise anybody you know more about this project than anybody 
in the country.
    I want to just add to your statement about the saving of 
those $10 million. It would seem to me that we should probably 
wait until the thing is built. And then if there is this huge 
need where you have hundreds of people that are constantly 
crossing the street and that there is this huge need, then I 
think we all would be willing to look at it favorably. But I 
think that is before the $10 million is established, we should 
probably first see what the need is, what the real need is, if 
there is a security issue.
    So I once again agree with what I think is your very wise 
statement about let's just try to save the $10 million if we 
can. And then we will see in the future if there is any there. 
We obviously ought to be--nobody wants for there to be any 
risk, but let's see if we can slow that part out of it.
    So, again, once again we speak with one voice on that. 
Thank you, ma'am.
    Ms. Norton. Well, I appreciate what you just said about it, 
Mr. Diaz-Balart. It is a security issue. This is one of the 
most secure facilities in the nation's capital, but Mr. Ebadi 
was talking about different strokes for different folks, 
different security for different parts of this. That is the 
opposite of a security issue.
    But he, of course, is not the one who has come forward with 
this plan. So we will wait until the next hearing that we have 
on the Hill. In fact, we are having a hearing Thursday on the 
Hill. So we will put this question to those from headquarters 
who come to testify.
    Mr. Lawrence and Mr. Ebadi, we not only thank you for your 
testimony. We note that you are providing me with names and the 
rest. Your figures reflect that you, in fact, are on the road 
to meeting the goals. They do reflect more than a good faith 
effort. We need to lay it out so people could see it. And we 
need it to be known that this is the first of a number of 
hearings like that.
    We are going to be as transparent as we can about those 
projects so there won't be questions and doubts in the 
community. The fact is that there is a long and sorry history 
of failure to employ people in the District of Columbia. And 
that is a nationwide problem for people of color.
    The only way to break through it is to lay it out on the 
table and so people see for themselves that is exactly what you 
have done here. Today I have no quarrel with what you have 
stated. I can only state keep it up, gentlemen. Thank you very 
much.
    We go now to our final panel. And I am going to ask James 
Bunn, Beverly Thomas, Kathleen McKirchy, Cecil Bennett, Gabriel 
Stewart, and Yanic Hardie to take your seats. And, in that 
order, I will ask you to summarize your testimony. I am just 
going to go right down the line here, beginning with James 
Bunn, the Executive Director of the Ward 8 Business Council.
    Mr. Bunn?

 TESTIMONY OF JAMES BUNN, EXECUTIVE DIRECTOR, WARD 8 BUSINESS 
  COUNCIL; BEVERLY L. THOMAS, PRESIDENT, REGIONAL CONTRACTING 
 SERVICES, LLC; KATHLEEN McKIRCHY, DIRECTOR COMMUNITY SERVICES 
   AGENCY, METROPOLITAN WASHINGTON, COUNCIL, AFL-CIO; CECIL 
BENNETT, OPERATOR, CLARK FOUNDATIONS; GABRIEL STEWART, LABORER, 
  CLARK FOUNDATIONS; AND YANIC HARDIE, PRESIDENT, CEO, HARDIE 
                           INDUSTRIES

    Mr. Bunn. Good evening. I want to thank you, Congresswoman 
Eleanor Holmes Norton, the public, and distinguished guests. My 
name is James Bunn. I am the Executive Director of the Ward 8 
Business Council.
    I am delighted to be here tonight to testify before the 
Subcommittee on Economic Development, Public Buildings, and 
Emergency Management of the process on jobs and small business 
opportunities as the Department of Homeland Security 
construction begins in ward 8.
    I am strongly supportive of the GSA project. Now, we are 
keenly aware that the St. Elizabeths project is the largest of 
its kind in GSA history, I think. The Ward 8 Business Council 
is honored to be so meaningfully engaged in this project.
    In order to ensure that there is some sense of 
transparency, GSA, to their credit, made concerted efforts to 
reach out to the community very early on in this process. Over 
the years, we have held many, many meetings. And there were 
several key issues that kept resonating: jobs, minority 
contracting, commercial development on the north and south wall 
of the West Campus of St. Elizabeths on Martin Luther King, Jr. 
Avenue, environmental justice issues, their qualities, and 
unification.
    Tonight I would like to address three of these issues. 
First of all, I would like to applaud Congresswoman Norton, 
GSA, and Clark Construction for opening the opportunity.
    It is my understanding that over 2,000 people applied for 
jobs at this particular site. I clearly understand that the 
Federal Government cannot be persuaded to hire ward 8 residents 
only. However, in light of the fact that you are in our 
backyard, ward 8 matters. I understand today that it is 
reported that 500 or more D.C. ward 8 residents have secured 
stable, permanent employment for this very historic project.
    I highly applaud the extraordinary work that has been 
accomplished through extraordinary community outreach by the 
following people, Mr. Thomas James, Mr. Chris Mills, Mr. 
Shapour Ebadi, Ms. Bonnie Echoles, Mr. Diude Bathman, and Ms. 
LaJuan Stevens, in doing a good job on this diligent outreach 
endeavor. The community was quite adamant that jobs are a 
priority. This is for our residents and our community to 
improve their quality of life.
    We continue to meet with GSA and their partners on a 
monthly basis with the coordination of Councilman Barry's 
office and GSA. The Ward 8 Business Council has worked 
tirelessly to help acquire the opportunities for our local 
CDEs. When we learned that the Federal Government required 8(a) 
certification, our Federal partners were eager to step up to 
the plate and help them become better informed about the 8(a) 
process. I am happy to announce that several small and local 
businesses were awarded contracts from ward 8.
    The GSA project is still relevant in the economic union 
that is generating growth in ward 8. The big contractors 
sometimes have a tendency to be a bit resistant to working with 
emerging small and local businesses. However, we have conquered 
that battle.
    Finally, it really strikes me that this the largest 
development project in the GSA history and that they currently 
are planning for commercialization on Martin Luther King, Jr. 
Avenue. And the East Campus is so far behind the eight ball.
    If we do not step up to the plate, the ward could lose 
millions of dollars in the form of disposable income. My 
greatest fear is that a customer base of 14,000 employees will 
be losing the opportunity for ward 8. Collaboration is the 
goal. We will not, and I repeat we will not, allow these 
dollars to unwillingly leave our community.
    Ms. Norton, I appreciate your astute observation about the 
amenities. We are hoping to work with Councilmember Barry's 
office to look at the Members' issues to form a committee. And, 
quite frankly, I hope that I will be the chair of that 
committee when it happens.
    I would like to thank Councilmember Barry and Brenda 
Richardson for their help to establish a valuable partnership 
and taking significant community building steps in this very 
massive undertaking and to you, Congresswoman Norton. This 
would not have been possible without all of your hard work and 
commitment to the residents of the District of Columbia.
    I hope all of you in this room remember there's something 
great in the new ward 8. And I thank you.
    Ms. Norton. Well, thank you, Mr. Bunn.
    The next witness is Beverly L. Thomas, President of 
Regional Contracting Services.
    Now, Ms. Thomas was our small business of the year, an 
annual award that we made. And it turns out that she had a 
contract for this very project.
    So would you please proceed with your testimony now, Ms. 
Thomas?
    Ms. Thomas. Thank you. Good afternoon, Congresswoman 
Norton, Members of the Subcommittee on Economic Development. My 
name is----
    Ms. Norton. Can everybody hear her?
    Ms. Thomas. My name is Beverly Thomas. And I am the 
President of Regional Contracting Services. We are a certified 
8(a) firm located here in the District of Columbia. We are also 
a CDE firm. We have been in the business here in the District 
of Columbia for nine years.
    At Regional, we have had the opportunity to work with Clark 
Construction for about seven years now as well as some other 
general contractors here in the community as well as some of 
the current contractors and subcontractors. And over the course 
of nine years, we have worked very, very diligently in 
developing good relationships with all of the general 
contractors as well as the Subcontracting Committee. Through 
that hard work, myself, my team, all the guys in the field, we 
are able to take those relationships further and competitively 
bid on the St. Elizabeths project.
    We were able to secure opportunities because we have those 
relationships. And I think that was really the most critical 
thing. And having those relationships when we did get those 
opportunities to bid, it wasn't just a blind bid and it was 
just our name with so many others. It was based on the 
relationship, and that was critical.
    Currently we are not on the project because our sort of 
work has not come up yet. And so our plan in dealing with 
recruits, specifically ward 8 people because that's really 
where the emphasis needs to be, we are going to use the same 
approach that we have always used. One, we always go to DOES, 
Department of Employment Services.
    The other way we always recruit for the job is through the 
Washington Hispanic newspaper because we definitely believe in 
inclusion of everyone. And we definitely look for people that 
are bilingual because that really gives us a competitive edge. 
And that to us is equally important.
    The additional way that we are looking at recruiting people 
for the project is something that we started about five years 
ago, which is an employee referral program. The employees that 
we have with us have been with us between five to six years. So 
obviously they are pretty happy working with us. And we 
actually pay a referral fee to employees to recruit other 
people. And they understand the requirements here in ward 8 as 
well as other District of Columbia people.
    Lastly, what we do, which has really been, I think, 
critical for our success, is that while a lot of companies will 
look at just putting laborers on a job, we don't hire laborers. 
We look at people and say, ``If you're going to work here, you 
have to go to an apprenticeship school because we are a better 
company when everyone can work and do everything that is 
required of us.``
    So we have an improvement apprenticeship program here in 
the District of Columbia, which was approved by DOES, for our 
scope of work within carpentry training. We had that program 
since 2003. So we have that training.
    We pay your training to make sure everyone is trained in 
first aid, CPR, those things that give us a very low rate in 
terms of accidents and a high rate with safety because that is 
important. And that is one of the ways that we have a 
competitive edge over other small businesses because of all of 
the training.
    For us, it doesn't stop there. What we also do, then, has 
helped us with Clark Construction and other contractors is that 
we spend a lot of money with outside agencies on what we like 
to call personal development training. Conflict resolution is 
critical. Diversity training for all of the people that work 
there is critical. Anger management is critical.
    So all of those things we spend time and money to teach 
everyone how to work through conflict because if you work on a 
construction job, there is a lot of conflict with scheduling 
the general contractors and all of the other subs. You have to 
have a way to work through that.
    So our goal for all of our employees is to give them the 
best technical knowledge possible, the best training possible, 
but also give them the required life skills that they will 
need. And because of all of those things, the regional team 
just continues to work very effectively, again, with Clark, 
other general contractors and other contractors.
    So we do thank you for having this opportunity to come 
before the Committee this evening.
    Ms. Norton. Thank you very much, Ms. Thomas. And, again, 
congratulations for your success in competitively winning the 
contract on the project.
    We will hear next from Kathleen McKirchy, Director of the 
Community Services Agency, Metropolitan Washington Council, 
AFL-CIO.
    Ms. McKirchy. Thank you very much, Congresswoman Norton and 
Congressman Diaz-Balart. Thank you for giving us the 
opportunity to be here today and talk a little bit about the 
program that we are running.
    The Community Services Agency is the nonprofit arm of Metro 
Washington AFL-CIO, which is the area labor federation 
representing 175 local unions and about 150,000 area union 
members. Some of those affiliates are represented here in the 
audience today. Also the President of the Labor Council, Josh 
Williams, is here as well.
    As we testified last October, our agency won a contract 
from GSA to provide pre-apprenticeship training and job 
placement services to 265 area low-income residents, including 
women, minorities, youth, and ex-offenders. We are operating 
this program currently in conjunction with our partners: Wider 
Opportunities for Women and Covenant House DC.
    We also have partnerships with all of the area union-
registered apprenticeship programs and with the associated 
general contractors of D.C. who are helping us with job 
placement. We also have arrangements with Prince George's 
Community College and D.C. Department of Employment Services. 
And we have agreements with over 30 area community-based 
organizations who help us recruit clients and coordinate case 
management with us.
    We were awarded this contract effective October 1. It 
recently has been extended to provide for an additional 53 
people. And we expect that we will be running those through at 
least February 2011, possibly a few months past that.
    We have two deliverables. The first is to provide training 
to 233 individuals. And our pre-apprenticeship training is very 
similar to what Ms. Thomas was describing. It includes OSHA 10, 
which is the 10 hours of safety and health training, CPR and 
first aid, blueprint reading, orientation to the construction 
industry, construction map review, careers in construction, 
apprenticeships, unions, job potential, tools and materials, 
job readiness, and adult education components, an overview of 
the green energy field and career paths in green, and also 
hands-on experiences at our local union apprenticeship schools.
    To date we have trained or have in training with our 
current class 161 adults and youth, 105 of whom have been D.C. 
residents. Our second deliverable is to place at least 180 of 
these people into paid apprenticeship programs or directly into 
jobs. And to date we have placed 55 individuals, 35 of whom are 
D.C. residents.
    We have a regular weekly process at the opportunities 
trailer on campus. We do a couple of things there. We recruit 
area residents, mostly D.C. residents obviously, for our 
clauses. We are currently running a six-week class now. We are 
starting another adult class on July 19th. So we recruit some 
of our students from the folks who come through there.
    We also promote our graduates with the contractors who have 
presences in the opportunities trailer. And we are also working 
with individuals who have signed up at the trailer who may 
already have past construction experience. They won't be in a 
pre-apprenticeship class, but they could use help with job 
placement. So we're working on that as well.
    We have been also working with Clark Construction since the 
beginning. Last week, as was mentioned, our current youth class 
was given an overview of the project at the site and a tour of 
the site by the Clark Construction staff. The students were 
able to speak with managers and workers to get a better idea of 
what is required on construction jobs and various possibilities 
for careers in the construction industry.
    Although we haven't placed any of our graduates on this 
project to date, we expect that we will be working closely with 
Clark and the subcontractors to do just that. As you know, the 
work is preliminary at the moment. And there have been fairly 
specific requirements for jobs at the moment; for example, the 
250 truck drivers and some other technical jobs on the site. 
But we expect to be working with Clark as the project rolls out 
and get more people placed in apprenticeships and on jobs.
    I want to thank you again, Madam Chairwoman, for the 
leadership you have already played in securing the funds and 
helping to ensure that the stimulus dollars which are funding 
this project are benefitting D.C. residents and local residents 
in need. We are committed to continuing to operate a quality 
program which satisfies all of our deliverables and helps put 
our target population of local residents to work in great 
careers in the construction industry.
    Thank you.
    Ms. Norton. Thank you very much, Ms. McKirchy.
    We will hear next from Cecil Bennett, who is an operator 
for the Clark Foundations.
    Mr. Bennett. Thank you.
    Good evening. My name is Cecil Bennett. I am an operator 
for the Clark Construction, also ward 8 resident. I went to a 
union apprenticeship school and graduated as a journeyman 
operator. I am grateful for the opportunities given to me by 
Clark Construction and happy that I will be on this project.
    Thank you again.
    Ms. Norton. Thank you, Mr. Bennett. That's all we needed to 
hear about that. The man's got a job.
    [Laughter.]
    Ms. Norton. Thank you. That was good news, Mr. Bennett.
    Let's go now to Gabriel Stewart, who is a laborer with 
Clark Foundations.
    Mr. Stewart. Good evening, everyone. I am Gabriel Stewart, 
and I am a resident of ward 8. I am a laborer of Clark 
Construction and have been for five years.
    I am thankful for the opportunity that I have been given 
right here in my backyard. Even though the work I do is hard, 
dusty, and dirty, I enjoy it. And I am grateful that the Coast 
Guard project is here in ward 8. Thank you.
    Ms. Norton. Thank you, Mr. Stewart.
    And, finally, is it Yanic?
    Ms. Hardie. It's Yanic.
    Ms. Norton. Yanic Hardie, President, SEP, Hardie 
Industries.
    Ms. Hardie. Good afternoon, Chairperson Norton, Mr. Diaz-
Balart, and Members of the Subcommittee. I am Yanic Hardie, 
President of Hardie Industries, Inc. And thank you for the 
opportunity to submit testimony on our company, the services we 
provide, and our experience associated with the redevelopment 
of the St. Elizabeths campus for the headquarters for the 
Department of Homeland Security.
    Hardie Industries, Inc. is a woman-owned construction 
company that offers design, build, preconstruction, 
construction management, general construction program, and 
project management, and various other construction services to 
meet a range of clients' needs. We are an 8(a) CDE HUB zone 
small business.
    Formed in 1996, the company has built this reputation by 
the satisfactory completion of multiple projects over the last 
decade. Hardie Industries has a capacity to execute 
construction projects valued from 5,000 to $800 million.
    Our capacity has grown through years of hard work and our 
commitment to providing excellent service. We have serviced 
over 1,000 engineering and construction task orders through 
design build, design bid, and turnkey construction delivery 
methods.
    As a result of our experienced commitment to safety and our 
commitment to providing quality construction service with 
responsive leadership, we currently have a bonding capacity of 
over 100 million.
    As a local company in ward 8, we look forward to 
opportunities to work and partner with GSA and Clark 
Construction. We do that by providing local companies like 
Hardie Industries, Inc. with increased opportunities with the 
residents in ward 8 and the District of Columbia to obtain 
employment.
    As a company, we have partnered with local nonprofit groups 
to provide District residents, specifically ward 8 residents, 
with training and information to obtain employment in the 
construction industry. We have partnered to offer courses and 
information to residents, whom we have subsequently hired on 
construction projects.
    Our services have included providing residents with access 
to courses on becoming construction flaggers and informing 
residents of the various training facilities and educational 
resources for trades in the construction industry, such as 
construction management.
    Our hope is that Clark Construction and GSA will work 
together to make an increased effort to provide viable 
contracts that will allow us to offer viable employment to 
District residents.
    We believe that Clark Construction's and GSA's commitment 
to the following will allow Hardie Industries and other local 
companies to successfully participate in the St. Elizabeths 
project: increase outreach to local business, providing 
forecasts of upcoming projects, community and opportunities to 
businesses.
    Hardie Industries currently has a small subcontract with 
Metro Total Joint Venture to provide hauling and dumping 
services for approximately six to eight months. This contract 
supports the excavation of soil and preparation of the St. 
Elizabeths site for the foundation.
    Our work started in April, on April 26, 2010. Since that 
time, approximately 5,700 truckloads of clean fill dirt has 
been delivered to our dump site. We have hired 19 employees as 
site superintendents and flaggers. We worked with the flagger 
training program, the flaggers, and hired seven local residents 
to work on the project as well. We will continue to train and 
hire from the local community for employment as those positions 
become available.
    Our overall observation and experience with this project is 
that there should be more monitoring and a third party 
organization to oversee matters and report on small and 
minority business goals.
    It is important that small businesses have a profitable 
experience as a result of this project. Winning a contract and 
losing money to deliver the service is not a successful venture 
for small businesses. In our opinion, GSA, Clark Construction 
are those in a position which needs to be mindful of this fact.
    Thank you again for this opportunity.
    Ms. Norton. Thank you, Ms. Hardie, for that testimony.
    I am going to ask Mr. Diaz-Balart if he would like to begin 
the questioning.
    Mr. Diaz-Balart. I appreciate that, Madam Chairwoman, 
particularly, as I said before, because of votes, I got here 
late. I am going to have to excuse myself early. So I will try 
to be brief in my questions, and I will try to ask you if you 
will be relatively brief. And I know that I would be able to 
follow up with you, Madam Chair, on other specifics. So, again, 
thank you.
    Mr. Bunn, are you satisfied with the work that is currently 
being done to hire locally and to use local businesses?
    Mr. Bunn. Well, I'm satisfied with the effort of work 
opportunities. I am not satisfied with the work because 
clearly, as the Congresswoman stated earlier, I think it has 
been more for the lack of miscommunication for the ward itself. 
If you ask anybody in the ward how many jobs are available, 
they are going to tell you 1,000 jobs to 1,500 jobs. And there 
are 1,500 jobs, they're saying, just nothing to get part of the 
contract. So as the project moves on, there will be better 
opportunities.
    But I don't think that is being communicated to the ward as 
well. And I work with GSA and Clark. We have been trying to do 
that. We are holding meetings. We are talking to people. But it 
is difficult. When people put out the word, that is not true. 
And that is the reason why this hearing is so important so the 
ward can hear some facts. And, as you know, just tonight some 
information is circulated that wasn't true. And that is some of 
the things that we have to overcome.
    But overall the project is moving well. I think that there 
should be more opportunities for ward 8 residents and ward 8 
CDs, even though the law says that you can't do that.
    And, just to give you a short, brief thing about what I am 
talking about, when the 8(a) certification issue came out, I 
didn't have anything to do but pick up the phone and call 
Bonnie and call a couple of other people there. And they didn't 
need to respond to us. We couldn't say that it was a ward 8 
project.
    The congresswoman held a ward 8 certification day down at 
the Martin Luther King Library in Washington, D.C. And that was 
part of our efforts. And we really appreciate that. So those 
kinds of things would help us.
    Mr. Diaz-Balart. Thank you.
    Ms. Thomas?
    Ms. Thomas. Yes?
    Mr. Diaz-Balart. How many jobs do you think, do you believe 
that your involvement in this project will actually create, if 
you know?
    Ms. Thomas. Actually, I do. Congressman, the contract that 
we were awarded, it is a two-part contract. It's with regard to 
the glass and glazing. Right now we have under contract 2.6 
million to purchase the glass. We finally got the drawings to 
now bid on the actual work. And so based on the glass and 
glazing the curtain wall, that would actually create for us 
roughly 13 to 15 jobs.
    Mr. Diaz-Balart. Great. And you mentioned your efforts 
regarding training. Any idea how many of your trainees actually 
go to work on the actual project?
    Ms. Thomas. Well, actually,--and I'm glad you asked that 
question--what we do is we put everyone through apprenticeship 
school. Because of that training, everything that they learned 
in apprenticeship school, they do learn the basics about 
blueprint reading, et cetera, et cetera.
    And then the second part of the training is all on-the-job 
training because it doesn't matter what you read in a book. You 
won't learn it until you apply it. So all of the training is 
all hands-on, and that is how they really learn and understand 
the carpentry field that we're in.
    Mr. Diaz-Balart. Great. Thank you.
    Ms. McKirchy, in your testimony before the Subcommittee 
last October, you mentioned that 32 individuals will be trained 
through apprenticeship training program, right? That's kind of 
a mouthful to me, but--and it was to prepare, I guess, entry-
level positions or unskilled positions? And can you provide us 
with an update on that program? You had I think talked about 
that. But how is it going?
    Ms. McKirchy. It is going. They currently I think have 12 
students in the class. It is a program that doesn't have a time 
certain to it. It's sort of modeled after the individual 
student. And so if the student can get where they need to be 
within six weeks, they rotate out into employment. If they need 
longer than that, they stay there until they're ready to get 
employed.
    Those are not students that we are training directly 
through our pre-apprenticeship training directly through our 
pre-apprenticeship training, but those are students that we're 
helping get the OSHA 10 training and may need help with the job 
placement again. But those are folks that are definitely part 
of the project. And a few of those have been placed to date.
    Mr. Diaz-Balart. I want to make sure I--it sounded like 
your testimony--it looks like you have a pretty good working 
relationship with Clark Construction and GSA regarding 
training. Is that? Did I hear that right?
    Ms. McKirchy. We do, although we haven't placed anyone yet 
on this project. All of our placements have been with other 
jobs around town.
    We are not limited. Even though we have been funded through 
GSA, we are not limited to placing people only on this project. 
Our job is to get people employed anywhere. And so we have been 
successful in that to date.
    Mr. Diaz-Balart. Are you finding major hurdles in order to 
place those trainees in either this job or in other jobs? I 
mean ----
    Ms. McKirchy. Well, in general, I think there is about a 15 
percent unemployment in the construction industry in the metro 
area at this time.
    Mr. Diaz-Balart. So that is the biggie?
    Ms. McKirchy. And that is the biggie.
    Mr. Diaz-Balart. That is the big one?
    Ms. McKirchy. Yes.
    Mr. Diaz-Balart. Other than that, other than that, as if 
that is not enough, right, any other real specific issues or 
you pretty much think that -- I mean, again, employment is 
always going to be a factor.
    Ms. McKirchy. Some of it has been employment. Some of it is 
the nature of the trainees that we graduate. Not all of them 
may have access to transportation. Some of the jobs that are 
available may not be in D.C. They are all over the metro area. 
And so we have to be able to get to them. And sometimes that is 
a bit of a hurdle.
    Mr. Diaz-Balart. Sure, sure. Thank you.
    I just have basically the same questions for both Mr. 
Bennett and Mr. Stewart, which is Mr. Bunn just mentioned how 
communication is a big part of it in getting the word out. So 
from your experience, what steps can be taken to ensure that 
job opportunities are publicized to the community, that people 
know that there were opportunities out there? Is there anything 
that you can think of that isn't happening that should be 
happening as far as communication?
    And also there is one other question, whoever wants to do 
it. As part of the training programs, what programs do you all 
believe are, frankly, important or critical to preparing -- you 
know, you all went through it. I mean, you just mentioned, Mr. 
Bennett, your training program.
    What kind of training programs do you all think are 
essential to make sure that people do have the opportunity when 
they do come out with -- we know with some of them. So those 
are the questions if you all want to try to kind of take six, 
seven.
    How did you hear about it? How did you hear about it 
specific to the jobs that are available, et cetera?
    Mr. Bennett. Well, for me, I went through my union 
apprenticeship program. Clark hired union operators. And my 
local 77 sent me to apply. That is how I heard about the job, 
just being an employee for Clark.
    I think all the words is pretty much out there. You just 
have to take advantage of them, me personally because, like I 
said, I have gone through the apprenticeship program. I heard 
about it through the Unemployment Office. So it's out there. 
You just have to take advantage of it.
    Mr. Diaz-Balart. Pursue it?
    Mr. Bennett. Yes.
    Mr. Diaz-Balart. Pursue it and try to take advantage of it.
    Mr. Stewart?
    Mr. Stewart. Me personally, I didn't hear about it. I just 
went out one day to see the man. I think that's how I came upon 
working for Clark.
    Mr. Diaz-Balart. Seek and ye shall find. Those are reliable 
words, I'll tell you.
    [Laughter.]
    Mr. Diaz-Balart. Ms. Yanic Hardie?
    Ms. Hardie. Yes?
    Mr. Diaz-Balart. That's a beautiful name.
    Ms. Hardie. Thank you.
    Mr. Diaz-Balart. I understand you mentioned a little bit 
about your company. Is it true you also did some work in South 
Florida?
    Ms. Hardie. Yes.
    Mr. Diaz-Balart. Good. I thought I liked you for something.
    [Laughter.]
    Mr. Diaz-Balart. How are you involved in this project and 
that kind of project? And then what do you love? And what do 
you hear about it to make you want to be for it?
    Ms. Hardie. Well, as a small company--and we're 8(a)--in 
the District, we're always looking for contracts and 
opportunities to bid on and also opportunities to create 
opportunities for D.C. and ward 8 residents.
    So we were aware that this project would become available 
today. And we had been in contact, for example, with the Ward 8 
Business Council. And we have gotten assistance and advice from 
them. They have been very, very helpful, Mr. Bunn in 
particular.
    Mr. Diaz-Balart. So, actually, your answer is not much 
different from Mr. Stewart's, which is you pursue it and hustle 
for it.
    Ms. Hardie. That's basically it, exactly.
    Mr. Diaz-Balart. Right. Now, as far as this, do you believe 
that GSA and Clark Construction, that their efforts, their 
outreach efforts, are sufficient for small businesses like 
yours and others?
    Ms. Hardie. We believe that they have made a good effort. 
And we would like to see an increased effort.
    Mr. Diaz-Balart. Very diplomatic answer.
    [Laughter.]
    Mr. Diaz-Balart. Do you expect to be involved in other work 
beyond earthwork and demolition for this project?
    Ms. Hardie. We have a tremendous amount of capacity. And 
our bonding capacities are truly high. As I indicated, it's 100 
million, which is pretty high for a small company. And we have 
grown, too. I mean, we have developed that over the years.
    So we are working. And I will be speaking with Mr. Lawrence 
after this session. We are looking for other opportunities, of 
course.
    Mr. Diaz-Balart. Madam Chairman, if I may? Again, I 
apologize to all of you for having to leave early. I don't have 
to tell you all that I will be hearing about the rest of the 
meeting from somebody very close to me.
    And I want to thank you, Madam Chairman, for having this 
meeting. I think the witnesses that came before us today had a 
lot to say. I learned a lot. I look forward to continuing 
working with you. And, more importantly, I want to thank you 
for your leadership.
    As I mentioned before, I know this is repetitive, but I 
think it bears hearing because you don't hear a lot of that 
these days. The Chairwoman and I may have a million differences 
and a million disagreements.
    However, on issues that are important, you will see that we 
come together, that we speak as one voice. And a lot of it is 
due to the Chairwoman's ability to bring people together to 
focus on what is important.
    I want to thank you for this hearing. Again, I apologize 
for having to step out, but thank you for the opportunity.
    Ms. Norton. Well, thank you, Mr. Diaz-Balart. There is no 
apology needed. And you were very good to come out at the end 
of a long day of work in voting to spend some time with us.
    And it is in keeping with the way in which Mr. Diaz-Balart 
has approached all of his work in this Subcommittee always 
working closely with me. There is no daylight between us. We 
both are trying to get things done, get things built and to 
hold GSA's feet to the fire, among other things. So I thank you 
again very much, Mr. Diaz-Balart.
    Mr. Diaz-Balart. Madam Chairman, my apologies again. Thank 
you.
    Ms. Norton. Let me ask Mr. Bunn first. You in your 
testimony indicated some concern about the development of the 
East Campus----
    Mr. Bunn. Yes.
    Ms. Norton. --and the planning for the commercialization of 
Martin Luther King Avenue. What is your concern? What do you 
believe are the tenements to this? Why don't you think that 
will come naturally under this project and out of collaboration 
with the District of Columbia?
    Mr. Bunn. Well, early on before GSA was actually approved, 
we started communicating with GSA about this project. And we 
had the opportunity to be taken by Mr. Thomas James to one of 
their other sites in White Oak in Maryland. And I had the 
opportunity to sit down and talk with the resident that 
spearheaded that.
    And we just don't believe that we are getting the support 
that we should have gotten from a project this size for our 
community. The amenities that you talked about, I don't think 
that's been talked about enough. I don't think people think 
that we really understand what that means.
    I will tell you, Congresswoman, we are very happy with the 
relationship that we have with GSA. But, having said that, if 
the mayor and the city does not start to work on the East 
Campus--and I know GSA is having some talk with them about it--
we will have 14,000 people that will have nowhere to go and 
nothing to do in ward 8 other than work.
    Now, we are anticipating that--this is what is going on 
now. I mean, we have some homes in this ward before the price 
sink that was priced at $700,000, right on Mississippi Avenue, 
lovely homes. We anticipate that some of these 14,000 people 
will decide they will become residents of the District of 
Columbia, those that aren't, and residents of ward 8.
    It doesn't make sense not to drive across the bridge ten 
miles to get to a job you can walk right across the street to 
basically. So it's just real negotiation. We talked about it. I 
met with GSA key people. And we had discussions about it. But 
we can't seem to get GSA to formulate a real meaningful 
document that will say that, ``We are going to do these 
things'' or ``We are not going to do these things on the West 
Campus'' to make sure that the East Campus and the rest of the 
ward has a chance to rejuvenate itself.
    I want to sit down with Mr. Lawrence. I love coming to your 
community, Councilwoman, because I come over there all the time 
and eat. I want to sit down in restaurants. I would love 
hanging out over there, but, you know, I understand all of 
those things take time.
    But if the government can spend an approximate $15 million 
from this thing in the second and third phase, then surely we 
can spend a few dollars to help make the surroundings of the 
people that's going to be working here more beautiful and the 
people in the ward because I think part of the problem for the 
residents of the ward, the reason why you hear so much negative 
talk about ward 8 is because we haven't been shown that 
somebody really cares about us.
    I mean, it is difficult to say that you want a job and 
somebody tell you that there's 1,000 jobs. And, yet and still, 
there are 19 people working.
    Now, I will be the first to admit, Congresswoman, we have a 
lot of problems with our young men passing the drug test. We 
understand that. And I tell everybody in apprenticeship 
programs and all of this stuff, but me myself, I believe there 
is too much in training if you're not going to tie training 
with jobs. The city is paying millings of dollars in training. 
And after six months, it goes away.
    So I am not going to take up all the time, but at some 
point I want to sit down and talk with you because these are 
some very serious issues facing the ward.
    Ms. Norton. Well, your skepticism comes from a long 
history, Mr. Bunn. So I think one should approach. Particularly 
when you see the Federal Government coming across the Anacostia 
the first time, the skepticism is what makes people do right.
    On the East Campus, the sequencing that we are working on 
now has to do with the West Campus. It doesn't mean we won't be 
working on the East Campus. The master plan does, in fact, in 
writing indicate that there will be a building on the East 
Campus. And all that the DHS has done so far, GSA has done so 
far, is to move in that direction.
    The city is cooperating. Its matters will be heavily 
involved in all of that. We can't do commercial development for 
local communities. That has to be done by the local community.
    I can state for the record that the Federal Government will 
already build on land it owns. So to the extent that the 
Federal Government transferred that parcel in the 1980's, the 
only way in which OMB or the Federal Government, the specific 
agency that has the say-so, is that we have had to work out 
some arrangement with the District of Columbia. You wouldn't 
build a house on what you didn't own. And we are not about to 
lease any part of this development.
    So we have talked to the District government about the quid 
pro quo, developing infrastructure there that would allow the 
amenities to spring up, and the Federal Government would build 
on land that it owned there as the only way we are willing to 
do it and that the OMB would allow us to do it. And we have 
been absolutely clear about that. So there is no getting around 
that.
    There are some things about this project and the Federal 
Government and the way it does real estate that I detest 
because they do not do real estate so that you can make deals 
easily because of all of the rules attached to doing it.
    But we have found--and I just wanted to lay to rest your 
concerns--the East Campus is part and parcel of this 
development. It is in the master plan. We can't put that 
building over on the West Campus. And I think we are on the 
same page.
    I must say that I think you came with skepticism. When 
people see they have to show you, that's how things get done.
    I'm going to ask Ms. Thomas. I am very interested in the 
fact that you have already filed for a competitive contract. 
Now, what is your business? You didn't describe the kind of 
business you are in.
    Ms. Thomas. Regional Contracting Services. We're a 
carpentry company. So with carpentry, it's furnishing, 
installing doors, frames, hardware, the individual type 
specialties, which are anything that goes into your restrooms. 
We do everything with blocking, with woodwork. In addition, 
installation of through-wall penetration, which is by a stop 
air barrier. So all of those things fall into carpentry.
    Ms. Norton. How did you get into that? Are you the founder 
of the company?
    Ms. Thomas. Yes, ma'am.
    Ms. Norton. How did you get into this business, Ms. Thomas?
    Ms. Thomas. About nine years ago, when I moved ago here, I 
worked for a contractor. He was outside of the District of 
Columbia. And at that time, there was a lot of talk about 
building the D.C. Convention Center.
    And, of course, the D.C. Convention Center at that time had 
a huge LSDBE requirement. So he actually presented me with an 
opportunity. He said, you know, ``Did you ever think about 
going into business?''
    I was like, ``I don't really know about construction, you 
know, all that much.'' But I looked into all the different 
opportunities in the District. And I had a few dollars saved 
up. And so I kind of literally took a leap of faith and found 
space in the District and got certified and pretty much started 
out by myself, just kind of as a one-woman show, and just 
really started beating the streets and beating the pavement, 
you know, got my brochures together, my business cards, and 
just went to any and every outreach out there for every small 
business opportunity out there, just literally one at a time.
    And the company started to grow. And then I was able to 
hire people. And here we are nine years later.
    Ms. Norton. How many Federal contracts have you qualified 
for?
    Ms. Thomas. Currently we're actually under two Federal 
contracts now.
    Ms. Norton. Nice to see you come.
    Ms. Thomas. Yes, ma'am. Yes, ma'am. We qualified and 
successfully completed about eight or nine Federal contracts, 
not all in the District of Columbia, some in Virginia, some in 
Maryland. So this particular one would really be number nine.
    Ms. Norton. That is a wonderful story. I would encourage 
everybody in this ward. Ms. Thomas wasn't a born carpenter. She 
probably isn't a carpenter yet.
    Ms. Thomas. No.
    Ms. Norton. But she is running a bunch of carpenters. It is 
a very inspiring story.
    Ms. McKirchy, you indicated you have placed some of your 
graduates. Now, yours is a pre-apprentice program. What kinds 
of places have you placed them? And since the pre-apprentice 
does not involve training for a craft, how do they become a 
part of the job structure where they are based?
    Ms. McKirchy. A number of our graduates have gone on to be 
accepted into the union apprenticeship programs. That is our 
primary first choice to try to get people placement in those 
programs because they are earned while you learn, learn while 
you earn. And you end up with a portable credential that is 
readily accepted around the country once you complete these 
programs, as my neighbor here has done.
    So that is my first preference for placement, but we have 
also placed people, some with the Federal Government. We just 
placed one of our women with the Smithsonian. She is doing some 
building maintenance-type work.
    And it just depends on the individual client and what their 
interest happens to be, you know, where the person might end 
up.
    Ms. Norton. The training can, especially on union jobs, 
really matter. The Step Up program that was used to build the 
Convention Center became a pool which proceeded a few years 
later to build the Woodrow Wilson Bridge.
    Now, these two things may not seem to have much in common. 
The two witnesses here will tell you that when you learn a 
trade or craft, it is not related to the kind of building. It 
is related to the craft you have.
    Now, Mr. Bennett and Mr. Stewart, I have questions for you 
because one of the things I have found is a huge 
misunderstanding of what construction work requires. ``Wow. 
People get to make that big money,'' you know, you hear people 
saying, ``Oh, you know, I can stand there with a flag'' if they 
see people doing road work. They don't understand. It beats 
digging a ditch. And he's now raising the flag sometimes 
because they steer people from raising the flag to doing other 
parts of the work most of the time.
    Let me ask you both, what time do you have to get to work, 
gentlemen?
    Mr. Stewart. About 6:30.
    Ms. Norton. How about you?
    Mr. Bennett. 6:30-7:00.
    Ms. Norton. I want everybody to hear that.
    Mr. Stewart. 6:30.
    Ms. Norton. It does seem to me that it is a disservice not 
to rule out what this work is before the collapse of the 
economy in 2007, when we were working off of those bubbles that 
finally flew up on us there was a shortage of journeymen 
throughout the country.
    The reason there was a shortage of journeymen is that the 
baby boomer journeymen aging out, their sons don't want to do 
this hard work. Their daughters don't want to do this hard 
work. There are places for people who want to get up at 6:30 in 
the morning.
    Tell me precisely what kind of work each of you do. Mr. 
Bennett, what do you do all day? And do you do it through all 
kinds of weather? I need to have some sense of what your 
workplace life is like.
    Mr. Bennett. Well, for me because I have the machines, I 
have to be here rain, sleet, snow. It may be 100 degrees out 
there. I have to be out there because I've got a closed cabin. 
So it's really no----
    Ms. Norton. Is it air-conditioned, sir?
    Mr. Bennett. I've been there four years. This is my first 
a/c machine.
    Ms. Norton. All right. Good job.
    Mr. Bennett. And, like I said, we have to be out there. I 
have to be out there because as long as there are guys out 
there who want to work, you have to have a machine out there. 
So I can't be there saying, ``It's too hot that they can't 
work.`` I can't say that. I have to stay out there because I 
have the machine.
    Ms. Norton. Mr. Stewart?
    Mr. Stewart. Yes, ma'am. Mr. Stewart. And, first of all, it 
can be 80-plus degrees out there. And I'm a lagger. What I do 
there is I lift the things, secure the foundations so the 
buildings don't collapse after they dig up.
    Ms. Norton. Say that again.
    Mr. Stewart. Lagging. I lift boils that weigh just about as 
much as I do. And what I do with them boils, I line them up 
against two beams to keep the surface from caving in after they 
done dig out. Then I take picks and shovel and digs out beams 
and re-lag all beams.
    Then I carry tie bags that weighs more than me. I help 
carry tie bags. It takes about every man we have out there to 
carry tie bags. And it's all day constantly.
    Ms. Norton. Do you work in the shade, Mr. Stewart?
    Mr. Stewart. No, ma'am. I work in the sun all day. And then 
I mix mortar--that's the cement--with the mix machine for the 
tie bags. And I do several things around there.
    Then I secure that water flow around there with the water 
pumps. Then I come up here all day. You know what I'm saying? 
Doing different assignments.
    But I like what I do. So that's what I keep doing.
    Ms. Norton. Would either of you mind telling us what the 
hourly wage for people who do your kind of work is, beginning, 
let's say beginning, what the hourly wage is?
    Mr. Stewart. Mines was, let me see, $13.
    Mr. Bennett. Mines is, for me right now I'm making $30 and 
some change an hour.
    Ms. Norton. Now? And you have health care as well, in 
addition?
    Mr. Bennett. Yeah. I get health care, dental.
    Ms. Norton. You're a union man?
    Mr. Bennett. Yeah, union. My union is very strong.
    Ms. Norton. And, Mr. Stewart, are you employed pursuant to 
a union as well or----
    Mr. Stewart. I never have, no. I started off getting 13. I 
don't get 13 now. I'm getting 20-22 an hour now.
    Ms. Norton. Both of you all earn every cent of that. I 
couldn't do what you do for ten minutes. And when I hear people 
talk about, ``I can do that work,'' I think they show 
disrespect for what it takes to do what you do, disrespect if 
they really think this is like doing it in your garden, doing 
it until you get hot, going in and getting some lemonade.
    What breaks do you get, sirs, both of you?
    Mr. Stewart. You handle that.
    [Laughter.]
    Mr. Bennett. Well, I get a ten-minute break. That's at 9:00 
o'clock.
    Mr. Stewart. About the same.
    Ms. Norton. And then you get a lunch hour?
    Mr. Stewart. No, no lunch hour.
    Mr. Bennett. No lunch hour.
    Ms. Norton. When do you leave, sir?
    Mr. Bennett. When you get home, when the work is done.
    Ms. Norton. What are the hours?
    Mr. Bennett. Well, from 6:30 to 2:30. It's pretty much on 
us. We kind of like have it set up that way. So if we take 
lunch, we have to stay to 3:00 o'clock. If we want to beat like 
the rush hour traffic, the heat, that's on us.
    Mr. Stewart. Yeah. It's our choice. And then sometimes we 
work overtime. That's our choice. So that's on us.
    Ms. Norton. This is very important to hear. And it's not 
the first time I've heard it. They work long hours to get off. 
And they're doing hard work. And they make sense. They make a 
lot of sense. This is not people still in some office with time 
to spare.
    It's very important to lay that out for the record because 
it is little known, little known, and little understood.
    Ms. Hardie, I would like to ask you about what you discuss 
in your testimony about the difficulty of winning a small 
business contract because you may lose money in the process. 
What are you referring to?
    Ms. Hardie. Well, we believe that for us we have to have 
more opportunities. And we have to be competitive. And there 
just have to be more opportunities for small businesses. We 
have the ability. We have the capacity. And we have the 
bonding.
    Ms. Norton. I'm not talking about that. Perhaps I misread 
your testimony.
    Ms. Hardie. OK.
    Ms. Norton. Where you discussed the difficulty in small 
businesses first getting a contract but then going all the way 
to make a profit, as you anticipated, why?
    Ms. Hardie. Sure. Congresswoman, when we build contracts, 
it is important for small businesses to understand that there 
are different fees and payments that have to be made from the 
contract. So it is important for businesses to understand that 
you have to have a profit margin. And so it is how you approach 
a contract. And it is also the opportunity that is presented.
    Ms. Norton. Because if you don't do your figures correctly, 
this may not be contracted to you?
    Ms. Hardie. Exactly. You can lose.
    Ms. Norton. You have had contracts before.
    Ms. Hardie. Absolutely.
    Ms. Norton. Like Ms. Thomas, you've gotten several 
contracts before?
    Ms. Hardie. Yes.
    Ms. Norton. How many contracts have you had in the past?
    Ms. Hardie. We have had over, I would say over, 100. We 
have done over 1,000 task orders. Again, we have been in 
business since 1996.
    Ms. Norton. What is your role with the business?
    Ms. Hardie. I started the business.
    Ms. Norton. Another one here.
    Ms. Hardie. Yes, with a baby in one arm. We are a women-
owned construction company. We do design build. We do 
everything. We are a construction----
    Ms. Norton. I'll ask you the same question I asked Ms. 
Thomas. She was fairly unlikely to be in the carpentry 
business. What was your background that enabled you to go into 
business?
    Ms. Hardie. OK. I started out as an attorney. And I started 
renovating my own home and decided, ``I love doing this.'' And 
from there, I said, ``If I can renovate my own home, make it 
beautiful, I can do it for other people.''
    So I started studying about how to do home improvements, 
home building. I sat for different exams and basically with a 
steel-toed boot and hard hat just developed the company, 
started bidding on Federal contract work, getting 8(a)-
certified, CDE-certified, and pretty much just pretty much 
forcing our way through.
    Ms. Norton. Again, anybody who it seems to me hears you and 
hears Ms. Thomas understands that what it takes is not a lot of 
wishing but a lot of hard. And it is very apparent and 
inspiring to hear both of you describe that.
    Ms. McKirchy, pre-apprenticeship programs turn out to be 
very important. Now, I have to ask you, isn't it the case that 
pre-apprenticeship programs help you get to people like Mr. 
Stewart and Mr. Bennett because some people simply have to rush 
out of such programs when they get to understand what really 
construction, for example, really entails.
    Ms. McKirchy. Well, there are a certain amount of people 
that get into it without knowing what it is. And so pre-
apprenticeship can certainly open their eyes about what is 
required and what the jobs are.
    In our case, we have gone to a sort of a three-step 
interview and approval process before we take people in. And we 
try to look for people that have had some exposure to the 
industry in some way, shape, or form that know a little bit 
about what the construction industry is all about.
    But then we also interview people. They have to take a type 
test and pass an eighth grade reading and math because the 
union apprenticeship programs and many of the other 
apprenticeship programs require eighth grade reading and math. 
The days when anybody could kind of walk in off the street and 
get a good construction job are kind of gone. You have to have 
some ability to master math and other skills in construction.
    And we try to make it very clear to people what it is that 
this work entails. It is not 9:00 to 5:00. It is outside. It is 
noisy. It is dirty. It is hot. It is cold. There is a chance of 
being injured. You know, you work at different job sites 
throughout your work career. You are not going to an office 
every day.
    So we try to before we accept people into the program make 
them understand what the jobs are. And I think we have gotten 
to the point where we are doing a pretty good job of getting 
those people who truly have an interest and an aptitude in 
doing this kind of work.
    Ms. Norton. It might be an interesting experience simply to 
one day out of the training period take the class over to where 
Mr. Bennett and Mr. Stewart are working on a hot day.
    Ms. McKirchy. We just did that last week, as a matter of 
fact. We have 18 to 24-year-olds in our current pre-
apprenticeship class. And we went to the site last Thursday. 
And they trooped around the veneer. And they saw these 
gentlemen at work.
    And not a single person having seen that said, ``Oh, I'm in 
the wrong place.'' It piqued their interest. It came them a 
better, realistic idea of what these kinds of jobs are like and 
what this kind of work is like. And I think it made for a 
better student, actually, to have seen that.
    Ms. Norton. Mrs. Thomas and Ms. Hardie, are you able--let 
me put it this way. You heard me question Clark about hiring 
local residents. Let me ask you about hiring local residents, 
small businesses. Could you tell me whether you have hired 
local residents for this job?
    I know you may not be on the job yet. If not, how do you 
intend to be held accountable as Clark is being held 
accountable in many other subcontracts, all the other 
subcontractors as well?
    Ms. Hardie. May I? OK. Thank you.
    We are actually performing right now. And what we have done 
on our own is to form an alliance with certain nonprofits in 
the ward. And if you come to our office at 1567 Alabama Avenue, 
you will see that we have different documents, even on our 
front door, where we say, you know, ``We are offering flagger 
training.''
    So we hold flagger training courses on our own and with 
these nonprofits. And we also have different documents in our 
officers that we provide to ward 8 residents on how to enter 
the construction industry.
    Again, this is not something that is forced upon us. This 
is something that we want to do because we care about the 
community and we care about making sure that this is a great 
community for everyone.
    Ms. Norton. Ms. Thomas?
    Ms. Thomas. The way that we recruit--and it is specifically 
for this particular project, ward 8--one of the first places 
that we always go to is DOES, Department of Employment 
Services. They are so receptive to you contacting them. I can't 
say enough good things about them.
    And we would take it a step further. The Office of 
Apprenticeship within DOES, we can call them. We have their 
numbers in our cell phones. ``This is the job. This is what 
I've got coming up.'' And, you know, we are very honest, ``We 
have a requirement for ward 8.''
    We have roughly seven to eight guys that are currently on 
our staff that are District residents and two that live in ward 
8. So then with our employee referral program, you know, we 
have a phone meeting every month. And it's ``OK, guys. We have 
this job coming up. It is coming up in about a month.'' And we 
send out our referral, employee referral, with the payroll 
checks to everybody.
    And we can specify ``We need people in ward 8.'' And, 
again, because most of our employees have been with us five-
plus year, they can tell our story better than anyone. And with 
the referral program, it is real simple. You bring me a guy. He 
passes the drug screen. After 30 days, you get $50. After 60 
days, you get another $50, After 90 days, you get another $50.
    So the reason we pay the employees, because one is a lot 
cheaper than all the other kind of advertising to recruit. The 
other thing is they do not refer anyone to me that's not going 
to have the same work ethic because they want the money. They 
don't want to be embarrassed because then I'm hesitant to hire 
somebody else again.
    So the thing is that retaining good quality employees will, 
in turn, have them recruit and bring good quality employees to 
you. So it is real simple for us.
    Ms. Norton. It's really simple. It is a great incentive. 
And I am sure it holds--it leads to great collegiality within 
the company.
    Now, I am going to ask you, Ms. Hardie, you heard me 
perhaps ask the first panel about the allegation of some 
subcontractors like you, that there are contractors who try to 
use them to mete goals. And they don't even get to do the work. 
Has anybody ever tried to do that to you? And what was your 
reaction if so?
    Ms. Hardie. Well, as a woman in the construction industry, 
people try a lot of things. But we make it clear that we intend 
to perform on every single contract. We hire our own staff. We 
hire from the ward. We hire our own superintendents. We hire 
our own workers. And we expect them to have work on our 
contracts.
    Ms. Norton. No. I'm talking about you working for a 
contractor----
    Ms. Hardie. Right.
    Ms. Norton. --and he uses you or Ms. Thomas to meet his 
goals. Have you ever had the experience where he's used you for 
that purpose but did not want to give you the work that was 
done, essentially paid off people to get lost while the work 
got done? Have you ever had anybody to try to do that?
    Ms. Hardie. In our extensive experience, yes, we have. And 
we just have had to make it clear we have a contract and we 
intend to perform on the contract.
    Ms. Norton. Have you ever had that experience, Ms. Thomas?
    Ms. Thomas. Oh, absolutely, absolutely. And everyone sees 
the work. It's called passthrough work. And you've seen it at 
every level.
    The biggest thing that you have to, as Ms. Hardie says, is 
that you really don't want to use the work. And I'm just going 
to keep you paying. You have to muscle the contractor. And then 
you also have to use muscle with the general contractor to say, 
``Listen,'' XYZ ``contacted me. We know there is a small 
business requirement, a minority requirement,'' et cetera, et 
cetera. ``I need your help, Mr. General Contractor, to make 
sure they carve out work for me.''
    You know, the fact is is that truly we don't have the 
capacity that Ms. Hardie does, but we are a legitimate 
contractor where we can bond our jobs up to $15 million. So, 
therefore, we have capacity.
    And what you have to do--and it is a very delicate 
balancing act because you want to not look at just the St. 
Elizabeths project or some other project. It builds synergy 
between your company and this prime contractor. It is a very 
delicate balancing act, but you have to have the general 
contractor assist you in forcing them to carve out work, let 
them see that you can perform it on task, on schedule, on time, 
get it right, work safely, and then start to change the mindset 
that they look at you not as a woman, a minority, a CDE, an 
8(a), but a legitimate contractor they can go to market with.
    It does take time. It does take time. But if you perform, 
then you are putting your company in a position for that prime 
contractor to have a strategic partner to go to market with 
time and time again. And that is the very delicate balancing 
act.
    It can be done. It is challenging. Not all the prime 
contractors are interested. They do want to use you as a 
passthrough. And that is when you have to make a conscious 
decision to say, ``Do I take this little three or four percent 
or do I just walk away from it and make a stand for what is 
right?'' And that is the responsibility of the small business.
    You can't cry ``Foul,'' Congresswoman, to say, ``Oh, they 
just used me as a passthrough.'' You have the opportunity to 
say, ``No,'' not sign the contract, use some leverage to get 
the work. But if you take it and you sign it, you can't back 
out.''
    Ms. Norton. Well, I can see why you have been so 
successful. No whining here.
    [Laughter.]
    Ms. Norton. Ms. Hardie?
    Ms. Hardie. Well, I think, to piggyback on that,--and that 
is what I mean by having steel-toed boots and a hard hat--you 
have to have business savvy in this industry. You have to know 
how to read a contract. You have to know how to budget. You 
have to have good staff, like we do.
    We have our own CFO, who is a CPA, on staff. She sits two, 
and I say she sits two, doors down from me. So you have to have 
the staff in place to make these good decisions and to be able 
to say, ``Hey, we can do the work. Look at our past 
performance. Look at the projects we have done. We are an 
excellent company. If you give us an opportunity, we are not 
going to let you down.''
    Ms. Norton. I'm going to close by asking Mr. Bennett and 
Mr. Stewart a question. You had to take drug tests in order to 
get work at these projects. Is that not the case?
    Mr. Bennett. Yes, ma'am.
    Mr. Stewart. Yes, ma'am.
    Ms. Norton. Are you tested more than once?
    Mr. Bennett. Yes, ma'am.
    Mr. Stewart. Yes, ma'am.
    Ms. Norton. Tell me about how that occurs.
    Mr. Stewart. Randomly.
    Ms. Norton. Random testing?
    Mr. Stewart. Right.
    Ms. Norton. You, too, Mr. Bennett? Are you random tested?
    Mr. Bennett. Yes, ma'am.
    [Laughter.]
    Ms. Norton. Let the record reflect that Mr. Bennett said 
yes.
    Again I wanted to have on the record and I want to indicate 
that this hearing is on the record, just as the hearing on 
Thursday on GSA. And the construction program will be on the 
record. The only difference is that one is being at the Rayburn 
Building, and this one was at St. Matthews Memorial Annex. It 
is the same kind of hearing.
    The reason I have gone to some lengths to ask you questions 
is I wanted to get on the record not only for the benefit of 
the Congress and the decisions we make but for the benefit of 
the community that Mr. Bunn testified about what he called 
communication I call various expectations when people heard 
that this great big thing was coming here, the biggest 
construction project in the United States of America today. It 
is so big we call it a ``compound.'' It is not a building. It 
is a series of buildings.
    And when you hear that, some people see the dollar signs. 
They don't see the work. And the reason they don't see the work 
is not because they are lazy or dumb. It's because they have 
not had the opportunity to learn what it takes to become what 
Ms. Thomas and Ms. Hardie have become, to become what you, Mr. 
Bennett, and you, Mr. Stewart, have become, to do what Mr. Bunn 
has done, to redirect, to reorient his community to believing 
that they can get contracts and then preparing them to do so 
and for doing what Ms. McKirchy has to do, which is essentially 
put people through a version of a boot camp. And the survivors 
then go on.
    Most people do not face such construction in the first 
place. So they have no reason to know what the pattern has told 
us today. We wanted to get it on the record. And we want to 
make sure that the community, ward 8 and throughout the 
District of Columbia, understands that this is a once-in-a-
millennium opportunity.
    The Federal Government simply no longer builds much. We 
lease much more than we build. We are going to be leasing even 
a part of this project. So the notion of the Federal Government 
spending this much money in building a compound, a series of 
buildings, means that this is an opportunity for business to 
learn and grow and for employees to learn and grow of the kind 
you will not see in this city again in your lifetime I have to 
tell you because every plot of ground is already built on.
    The only thing that comes close to what we are doing today, 
there are two periods in American life that come close. One is 
when they built the Pentagon. But what is most like this period 
is what FDR did during the New Deal.
    Virtually everything you see on Constitution Avenue and 
Pennsylvania Avenue was built as a stimulus project just the 
way this was. And to get the money out of the Congress, I went 
to them and said, ``If you are ever going to do it, then you 
need to do it at a parallel time to what FDR did. If you're 
going to do it, it won't make a lot of sense to start doing it 
when it costs more to build ten years from now, when there are 
a lot of people vying for jobs. If you're going to do it, you 
can do it when people need it now. And you can help us get out 
of a recession now.''
    This is a long-term project that's going to provide jobs 
for people like you and businesses, like you, if they want to 
take advantage of this opportunity. Ut we cannot expect that 
people are born into this world understanding what it takes to 
qualify to do the work on such a project.
    So I have regarded your testimony as invaluable. This has 
been an official hearing for the record. We are going to take 
parts of this hearing as they become relevant so that the 
community understands exactly what it is that you do. We are 
going to submit parts of your testimony, Mr. Bennett and Mr. 
Stewart, to the apprenticeship programs so that they can hear 
exactly what it takes.
    When they opened the Opportunity Center, we asked for an 
apprentice to be there. It happened to be a plumber's 
apprentice. And there he was, a young man like you, not 
overweight, fit. And he told us what it's like. He said, yeah, 
he had to be there at 6:30.
    And he was in his third year. I think it's four years to be 
a plumber, four years. He was in his third year. Well, you see, 
by that time, I was out of law school. This young man had 
another year to go. And he not only worked every day doing the 
kind of hard labor you do, but he had to go at night two nights 
a week to class. And he was slim and happy. You know, he was 
ready for hard work.
    So the best preparation we can make for our young people is 
to let them see for themselves or hear for themselves the kind 
of testimony you have given.
    We didn't plan it this way, Ms. Thomas and Ms. Hardie, that 
there would be two women on, but that is the way life is. And 
we have been very inspired that women have owned companies in 
nontraditional work because if they can do this, it seems to me 
it sends its own message or testimony very valuable to us, very 
inspiring to hear.
    Ms. McKirchy, I have known you for some time and the work 
of Metropolitan Council AFL-CIO. I am not surprised that you 
won this competitive contract. I was at your first graduation, 
very inspired by it. I should have asked you, were there any 
more women? There was one woman in that class.
    Ms. McKirchy. There are more.
    Ms. Norton. But there are more women now? These classes are 
open to men and women. I mean, you see the women out on the 
streets where they are laying roads, holding the flag. Those 
women have got to go back and do hard work, too. It is just 
their time to hold the flag.
    And, of course, Mr. Bunn, you have been an inspiration to 
this entire project and to this entire community. When the 
community sees one of their own keeping track of what is 
happening, it inspires their confidence. And that confidence 
has been very important and very important to GSA.
    GSA has lived up to that confidence so far. And our job, 
particularly my job as Chair of the Subcommittee with 
jurisdiction over this project, is to make sure everybody stays 
on the same page. I do not play doctor. When there is some 
issue, people just come to me. We try to straighten it out. We 
don't have a hearing on every issue. We say the hearings to you 
point in the project to where they can tell us something we 
don't know and where they can tell the community something that 
it may not know.
    So on behalf of the Subcommittee--I know I speak for Mr. 
Diaz-Balart. There are, of course, other Members of the 
Subcommittee. I want to thank all of you for truly useful and 
beneficial testimony that will help us to make this truly a 
great project.
    This hearing is adjourned.
    [Whereupon, at 8:22 p.m., the foregoing matter was 
concluded.]

[GRAPHIC] [TIFF OMITTED] T7128.006

[GRAPHIC] [TIFF OMITTED] T7128.007

[GRAPHIC] [TIFF OMITTED] T7128.008

[GRAPHIC] [TIFF OMITTED] T7128.009

[GRAPHIC] [TIFF OMITTED] T7128.010

[GRAPHIC] [TIFF OMITTED] T7128.011

[GRAPHIC] [TIFF OMITTED] T7128.012

[GRAPHIC] [TIFF OMITTED] T7128.013

[GRAPHIC] [TIFF OMITTED] T7128.014

[GRAPHIC] [TIFF OMITTED] T7128.015

[GRAPHIC] [TIFF OMITTED] T7128.016

[GRAPHIC] [TIFF OMITTED] T7128.017

[GRAPHIC] [TIFF OMITTED] T7128.018

[GRAPHIC] [TIFF OMITTED] T7128.019

[GRAPHIC] [TIFF OMITTED] T7128.020

[GRAPHIC] [TIFF OMITTED] T7128.021

[GRAPHIC] [TIFF OMITTED] T7128.022

[GRAPHIC] [TIFF OMITTED] T7128.023

[GRAPHIC] [TIFF OMITTED] T7128.024

[GRAPHIC] [TIFF OMITTED] T7128.025

[GRAPHIC] [TIFF OMITTED] T7128.026

[GRAPHIC] [TIFF OMITTED] T7128.027

[GRAPHIC] [TIFF OMITTED] T7128.028

[GRAPHIC] [TIFF OMITTED] T7128.029

[GRAPHIC] [TIFF OMITTED] T7128.030

[GRAPHIC] [TIFF OMITTED] T7128.034

[GRAPHIC] [TIFF OMITTED] T7128.031

[GRAPHIC] [TIFF OMITTED] T7128.032

[GRAPHIC] [TIFF OMITTED] T7128.033

[GRAPHIC] [TIFF OMITTED] T7128.035

[GRAPHIC] [TIFF OMITTED] T7128.036

[GRAPHIC] [TIFF OMITTED] T7128.037

[GRAPHIC] [TIFF OMITTED] T7128.038

                                    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
